<html>
<title> - DEVELOPMENTAL PERSPECTIVE ON TESTING FOR DYSLEXIA</title>
<body><pre>[Senate Hearing 114-692]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-692
 
                 DEVELOPMENTAL PERSPECTIVE ON TESTING 
                              FOR DYSLEXIA

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

    EXAMINING THE DEVELOPMENTAL PERSPECTIVE ON TESTING FOR DYSLEXIA

                               __________

                   OCTOBER 13, 2015 (New Orleans, LA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 97-273 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming               PATTY MURRAY, Washington
RICHARD BURR, North Carolina           BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia                BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                    ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                   AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska                 MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                    SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina              TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                   CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                    ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

                       
                                     
                                     
                                     
                                       

               David P. Cleary, Republican Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, OCTOBER 13, 2015

                                                                   Page

                           Committee Members

Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana, 
  opening statement..............................................     1

                              Witnesses--

Shaywitz, Bennett A., M.D., Chief of Pediatric Neurology and Co-
  Director of the Yale Center for Dyslexia and Creativity, Yale 
  University School of Medicine, New Haven, CT...................     4
    Prepared statement...........................................     5
Shaywitz, Sally E., M.D., Audrey G. Ratner Professor in Learning 
  Development and Co-Director of the Yale Center for Dyslexia and 
  Creativity, Yale University School of Medicine, New Haven, CT..     9
    Prepared statement...........................................    12
Baraka, Ameer, Author/Actor, New Orleans, LA.....................    19
    Prepared statement...........................................    22
Buquet, J.J., President, Buquet Distributing Co., Houma, LA......    23
    Prepared statement...........................................    24
Chauvin, Karen, Director, Louisiana Center for Dyslexia and 
  Related Learning Disorders, Nicholls State University, 
  Thibodaux, LA..................................................    25
    Prepared statement...........................................    28

                                 (iii)

  


           DEVELOPMENTAL PERSPECTIVE ON TESTING FOR DYSLEXIA

                              ----------                              


                       TUESDAY, OCTOBER 13, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    New Orleans, LA
    The committee met, pursuant to notice, at 10 a.m. in Homer 
L. Hitt Alumni and Visitor Center Ballroom, University of New 
Orleans, Lakefront Campus, New Orleans, LA, Hon. Bill Cassidy 
presiding.
    Present: Senator Cassidy.

                  Opening Statement of Senator Cassidy

    The Chairman. Thank you all for being here today. This is 
the Senate Committee on Health, Education, Labor, and Pensions. 
I ask that we please come to order.
    This morning, we are having a hearing titled 
``Developmental Perspective on Testing for Dyslexia'' that will 
highlight the importance of early identification of students 
with dyslexia, how high-stakes testing affects such students, 
and the need for appropriate accommodations.
    I will make an opening statement, and then I will introduce 
our panel of witnesses. Each panelist will have 5 minutes to 
summarize their testimony. We have a timer. The green light is 
go. The yellow light means you have 1 minute left, and so 
please wrap up your comments. The red light means your 5 
minutes have passed, and I am coming over there with the gavel.
    After our witness testimony, I will begin with a round of 
questioning. I would like to give my opening statement. Again, 
thank you all for being here.
    I want to acknowledge a couple people who are running for 
State office who are here, Sharon Hewitt and J.J. Buquet, just 
to say that we would like to influence those who are 
influencers. Those who care about dyslexia need to know this 
message. They are going to hear today. Either by watching 
online or being here, please spread the message.
    Next, I am very pleased to host this and discuss the issue 
of dyslexia, an issue important to me as a parent and as a 
Senator. Our hope is that we bring greater awareness of the 
issue of dyslexia to help drive new Federal policies and to 
develop those resources to help those students who are 
identified as dyslexic. The goals of the hearing are to show 
the importance of this and how high-stakes testing affects such 
students, and the need to provide appropriate accommodations 
for those students who are dyslexic.
    Dyslexia--it is defined as an unexpected difficulty in 
reading, highlighted by a gap between an individual's 
intelligence and their reading level. It is the most common 
learning disability. A National Institutes of Health study 
found that the prevalence rate of dyslexia is nearly 20 
percent. Dyslexia impacts Americans from all walks of life, 
Members of Congress, our staff, our families, thousands of 
participants--again, 20 percent of the population.
    A couple years ago, my daughter was diagnosed with 
dyslexia, and that is when my wife and I began to learn as much 
as we could about the topic. You are amazed by how much is 
known and yet far too often not incorporated into public 
policy.
    One example, I asked the Secretary of Education on the 
Federal level, of all the money spent on reading programs, how 
much was spent on dyslexia? He looks off into space and comes 
back and says, ``as far as I know, not any.'' It is 20 percent 
of our population, the most common reading disorder, and we are 
not addressing it on the Federal level? It just leads to the 
need for a hearing such as this, so that awareness increases, 
and hopefully that will change.
    A recent GAO report found that many students with learning 
and other disabilities including dyslexia are not receiving 
accommodations, such as extended testing time, as required by 
the American with Disabilities Act when they take high-stakes 
testing, such as the SAT, the GRE, the LSAT, the U.S. Medical 
Licensing Examination, and others.
    This is unacceptable. Working together, we need to make 
sure that those with learning disabilities are receiving the 
proper and legally required accommodations.
    For those with money, you can figure it out. That is the 
issue. There are excellent schools where you can go and have a 
child and there will be remediation. There are also schools and 
parochial programs. We are joined by Jan Lancaster, who is the 
superintendent of education for parochial schools here in 
Louisiana in the archdiocese in New Orleans. There are 
programs, say E.D. White and Vandebilt Catholic, parochial 
schools in which they have integrated such programs for 
children with dyslexia.
    If you cannot afford this tuition, what do you do? Many 
public schools, like I said, they mainstream dyslexics. 
Frankly, that is to say that most likely they are not receiving 
the remediation they need.
    I applaud the schools and educators who embrace science and 
are providing students with the proper educational environment 
and curriculum that will allow their remediation.
    As far as we know, there are two public charter schools in 
the Nation that address--maybe three, maybe four, but the two 
we know of are in Louisiana. These are schools specifically for 
those with dyslexia.
    I will say it again later, but Karen Chauvin represents the 
MAX Charter School, which was the first charter school, the 
best we know, in the Nation to address the needs of children 
with dyslexia. The second is the Louisiana Key Academy, which 
is in Baton Rouge, which, in the interest of full disclosure, 
my wife helped to start. As you might guess, I am a little 
partial to it.
    I am partial to it mainly because it makes a science-based 
curriculum available for children whose parents might not be 
able to afford $10,000 to $50,000 a year in tuition. That said, 
although most of the students qualify for free or reduced 
lunch, the student body comes from all socioeconomic strata, 
because when parents are looking for answers, they are looking 
for answers.
    These charter schools are great examples of where we can go 
forward.
    In the House of Representatives, I started a congressional 
Dyslexia Caucus to raise awareness of those affected. I 
continue this work in the Senate. Last week, a resolution 
passed in the Senate that Senator Mikulski of Maryland and I 
passed, which calls on Congress, schools, States, and local 
educational agencies to recognize the significant educational 
implications of dyslexia that must be addressed, and designates 
October 2015 as National Dyslexia Awareness Month. It is the 
hope that this resolution is the first of many steps in the 
right direction.
    Despite great strides, we have a lot to learn about 
dyslexia. I am looking forward to hearing what our panel of 
witnesses have to say.
    Our first witness who will join us via video conference, 
who had attempted to be here but circumstances did not allow, 
will be Dr. Sally Shaywitz, who is the Audrey Ratner Professor 
of Learning Development at the Yale University School of 
Medicine and co-director of the Yale Center for Dyslexia and 
Creativity.
    Dr. Shaywitz has authored more than 200 scientific articles 
and books, and together with her husband, Dr. Bennett Shaywitz, 
is the originator of the Sea of Strengths model of dyslexia. 
Dr. Shaywitz is also an elected member of the Institute of 
Medicine, of the National Academy of Sciences. She received her 
bachelor's degree from the City University and medical degree 
from the Albert Einstein College of Medicine.
    The next witness is Dr. Bennett Shaywitz. He is the Charles 
and Henry Schwab Professor in Dyslexia and Learning Development 
and co-director of the Yale Center of Dyslexia and Creativity, 
and has devoted his career to better understanding and 
elucidating the neurobiological basis of reading and dyslexia 
to ensure that this new knowledge is translated into better 
care and treatment of children and adults who are dyslexic.
    Dr. Shaywitz has authored more than 300 scientific papers 
and has received many honors for his contributions. He 
currently serves on the Scientific Advisory Board of the March 
of Dimes and the National Vaccine Program Office Safety 
Subcommittee. He sits on the editorial board of Pediatrics in 
Review, Learning Disabilities: A Contemporary Journal, and 
Clinical Neuropsychology. He received his bachelor's degree 
from Washington University and his medical degree from 
Washington University School of Medicine.
    Next is Mr. Ameer Baraka. He is an actor and author from 
New Orleans. He struggled with reading his whole life, but did 
not learn he was dyslexic until 19 and incarcerated. In prison, 
Ameer earned his GED and was empowered to influence youth who 
struggle the way he did.
    We are eager to hear how he has used his personal testimony 
to steer young dyslexics onto the path of reading and off the 
path to incarceration.
    Mr. J.J. Buquet is the president of Buquet Distributing 
Company in Houma. He is actively involved in numerous civic and 
community organizations, including past chair of the Houma-
Terrebonne Chamber of Commerce, current chair of the Bayou 
Community Foundation, and chairman of the South Louisiana 
Economic Council, and serves on other boards and foundations. 
He received his bachelor's degree from Washington and Lee 
University and his MBA from Tulane.
    Last, Ms. Karen Chauvin has been involved in the education 
of dyslexics since 1992. She is currently the director of the 
Louisiana Center for Dyslexia and is the Jimmy and Glenny Lee 
Buquet Endowed Professor at Nicholls State University in 
Thibodaux. She is the founding board member and president of 
the board of the Maxine Giardina Charter School in Thibodaux 
and founding board member of the Louisiana Key Academy in Baton 
Rouge, both charter schools were created to serve the needs of 
children with dyslexia. She is a graduate of Nicholls State 
University with a master's in education.
    I will now go to Dr. Sally Shaywitz or Bennett. I will let 
you two decide.

  STATEMENT OF BENNETT A. SHAYWITZ, M.D., CHIEF OF PEDIATRIC 
 NEUROLOGY AND CO-DIRECTOR OF THE YALE CENTER FOR DYSLEXIA AND 
 CREATIVITY, YALE UNIVERSITY SCHOOL OF MEDICINE, NEW HAVEN, CT

    Dr. Bennett Shaywitz. Senator Cassidy, this is Bennett 
Shaywitz. Sally and I switched. I am going to go first.
    Can everybody hear me and see our slides?
    The Chairman. Yes, we can.
    Dr. Bennett Shaywitz. That is great.
    Thank you, Senator Cassidy. We are pleased to be part of 
this panel and say hello to the other panel members.
    What we would like to do in the next few minutes is give 
you a sense of why we think this dyslexia is an explanation and 
potential solution to the national epidemic of reading and 
school failure.
    The problem is that we know we have a national epidemic of 
reading and academic failure, and science has told us that 
dyslexia may be at the root of all these reading difficulties. 
The problem, of course, is that schools are not using 
scientific knowledge to address and remediate what we know 
scientifically about dyslexia. Schools really need to increase 
their awareness of dyslexia.
    This is data from the National Assessment of Educational 
Progress, the so-called Nation's report card. This is the most 
recent data. It shows that half of African-American children in 
this national survey were reading below basic level, compared 
to 21 percent of white children. That is still a large number 
of white children who are not reading at basic levels, but 
significantly even more African-American and disadvantaged 
children.
    What we know about dyslexia is that it is especially 
prevalent and unrecognized in children of color and children 
who are disadvantaged. In these children, reading difficulties 
are often written off to environmental issues or lack of 
ability when they are in fact dyslexic. These problems can be 
addressed and remediated, but only if the child is identified 
as dyslexic.
    Senator Cassidy talked about the 21st century definition of 
dyslexia. In fact, this 21st century definition of dyslexia is 
incorporated into the Cassidy-Mikulski Senate resolution. It is 
an unexpected difficulty in reading for an individual who has 
the intelligence to be a much better reader, and we know it is 
due to a difficulty in getting to the individual sounds of 
spoken language, which affects the ability of an individual to 
speak, to read, to spell, and often to learn a second language.
    This data is from a paper we published several years ago, 
and it is documentation of the unexpected nature of dyslexia. 
Here are the typical readers, their intelligence along this 
line, their reading along this line. What we see, as Sally 
likes to say, is that they are kissing cousins. Intelligence 
affects reading; reading affects intelligence, and so on. They 
are dynamically linked.
    That is what we know about typical readers. Look at 
dyslexic readers. A child can be very intelligent and have a 
very low reading level. They are not linked in dyslexic 
readers. This is scientific documentation of the unexpected 
nature of dyslexia.
    Senator Cassidy mentioned that dyslexia is the most common 
of the learning disabilities. As you see here, dyslexia 
represents 80 percent to 90 percent of all of those children 
who are labeled ``learning disabled.'' It is far and away the 
most common of the learning disabilities.
    We know that dyslexia is universal. It affects all racial, 
ethnic, and social groups. We know it affects one in five 
children. That is 10 million children in the United States. 
Every classroom has children who are struggling.
    Here we see the neural signature of dyslexia. This is very 
well-documented. It is an inefficient function in systems in 
the back of the brain. We have illustrated it here in this 
view. Here is the left side of the brain, and you see systems 
for reading in typical readers in the front of the brain and 
two in the back of the brain. In dyslexic readers, those 
systems in the back of the brain are functioning inefficiently. 
We term that the neural signature of dyslexia. It is very, very 
well-documented.
    What is really important for you all to know is that in 
dyslexia we have all the scientific knowledge. There is not a 
knowledge gap in dyslexia but an action gap. The critical issue 
is to align education with 21st century science.
    I am going to stop here, and Sally is going to resume.
    [The prepared statement of Dr. Bennett Shaywitz follows:]
            Prepared Statement of Bennett A. Shaywitz, M.D.
    Good morning Senator Cassidy, fellow members of the panel and 
attendees. Thank you for the opportunity to speak with you about the 
science of dyslexia and share with you the tremendous scientific 
progress that has been made in dyslexia. In particular, we want to 
focus on dyslexia as an explanation and potential solution to the 
national epidemic of reading/school failure.
    My name is Bennett Shaywitz, M.D., I am a physician-scientist and 
the Charles and Helen Schwab Professor in Dyslexia and Learning 
Development and co-director of the Yale Center for Dyslexia & 
Creativity at the Yale University School of Medicine. Both a child 
neurologist and neuroscientist I have been a leader in applying 
functional magnetic resonance imaging (fMRI) to understand the 
neurobiology of reading and dyslexia in children and adults. These 
studies identify a neural signature for dyslexia, making a previously 
hidden disability visible, and for the first time demonstrate the brain 
basis for the lack of fluency in dyslexia. Our most recent studies 
focus on differences in brain connectivity between dyslexic and typical 
reading children and adults and studies in progress use fMRI to 
investigate attentional mechanisms in reading and dyslexia.
    The author of over 300 scientific papers, my honors include 
election to membership in the National Academy of Medicine of the 
National Academy of Sciences and recipient of the Distinguished Alumnus 
Award from Washington University. I currently serve on the boards of 
the Park Century School and the Westmark School. I previously served on 
the Institute of Medicine Immunization Safety Review Committee, on the 
National Vaccine Program Safety Subcommittee and on the Scientific 
Advisory Board of the March of Dimes. I have been selected annually for 
Best Doctors in Amer;ca and America's Top Doctors.
    As you will hear, in dyslexia, science has moved forward at a rapid 
pace so that we now possess the data to reliably define dyslexia, to 
know it's prevalence, it's cognitive basis, it's symptoms and 
remarkably, where it lives in the brain and evidence-based 
interventions which can turn a sad, struggling child into not only a 
good reader, but one who sees herself as a student with self esteem and 
a fulfilling future.
                              the problem
    Overwhelming evidence indicates that we are in the midst of a 
national epidemic of reading/academic failure. Accumulating scientific 
evidence demonstrates that dyslexia both may be at the root of the 
reading difficulties noted and provide a potential solution to this 
unfortunate epidemic. The difficulty is that although the evidence is 
there, schools do not appear to be aware of and/or using this 
scientific knowledge to remediate the highly prevalent epidemic of 
reading failure. It is imperative that schools must increase their 
awareness of dyslexia.
    The most recent data from the National Assessment of Educational 
Progress (NAEP, 2013) demonstrate that African American students are 
especially impacted by this epidemic of reading failure. For example, 
fully half (50 percent) of African American boys and girls are reading 
below basic levels compared to 21 percent of white students. Sadly, 
these reading difficulties are not only highly prevalent in children of 
color and those who are disadvantaged, but they far too often go 
unrecognized and unaddressed. In these children their significant 
reading difficulties tend to be written off to environmental issues or 
lack of ability. What science has taught us is that these reading 
difficulties can be addressed and remediated, but only if the child is 
identified as dyslexic.
                     unexpected nature of dyslexia
    Dr. Morgan's initial description of dyslexia over 100 years ago as 
an unexpected difficulty in reading has now been validated by empiric 
evidence. Our research group found that in typical readers, IQ and 
reading are dynamically linked, they track together over time and 
influence each other. In contrast, in dyslexic readers. reading and 
intelligence are not linked and develop more independently so that a 
child who is dyslexic can have a very high IQ and, unexpectedly, read 
at a much lower level.
    This unexpected nature of dyslexia is now recognized in the 21st 
century definition of dyslexia found in Cassidy-Mikulski Senate 
resolution 275. Here dyslexia is:

    (1) ``Defined as an unexpected difficulty in reading for an 
individual who has the intelligence to be a much better reader''; and
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    (2) Due to a difficulty in getting to the individual sounds of 
spoken language which affects the ability of an individual to speak 
read, spell and often, learn a second language.

    The Cassidy-Mikulski resolution not only recognizes the unexpected 
nature of dyslexia but also incorporates what 21st century science 
knows about the cognitive basis of dyslexia. Dyslexia is a difficulty 
within the language system, more specifically, the phonological 
component of language--it is not seeing words backward.
    Data from laboratories around the world now answer the question--
why do otherwise bright and motivated children struggle or even fail to 
learn to read? Almost invariably, they have a phonologic deficit. To 
explain, converging evidence over the past several decades supports the 
phonological basis of dyslexia. Phonological refers to the smaller 
pieces of language that make up a spoken word. To understand the 
implications of this theory, we compare what we know about spoken 
compared to written language. Spoken language is natural and does not 
have to be taught--everyone speaks. Reading is artificial and must be 
taught. The key in learning to read is that the letters have to be 
linked to something that has inherent meaning--the sounds of spoken 
language. To read, the beginning reader must come to recognize that the 
letters and letter strings represent the sounds of spoken language. She 
has to develop the awareness that spoken words can be pulled apart into 
their basic elements, phonemes, and that the letters in a written word 
represent these sounds. Children and adults who are dyslexic struggle 
to pull apart the spoken word and, as a result, cannot isolate each 
sound and attach it to its letter. Results from large and well-studied 
populations of dyslexic children confirm that in young children as well 
as adolescents a deficit in phonology represents the most specific and 
robust correlate of dyslexia.
        dyslexia is specific; learning disabilities are general
    Dyslexia is the most common and most carefully studied of the 
learning disabilities, affecting 80 percent to 90 percent of all 
individuals identified as learning disabled. Of the learning 
disabilities, dyslexia is also the best characterized and the oldest. 
In fact, the first description of dyslexia preceded the first mention 
of learning disability by over 60 years--dyslexia was first reported by 
British physician, Dr. Pringle Morgan, in 1896, describing Percy F.,

          ``He has always been a bright and intelligent boy, quick at 
        games, and in no way inferior to others of his age. His great 
        difficulty has been, and is now, his inability to learn to 
        read.''

    A description that characterizes the boys and girls, men and women, 
I continue to see to this day. In contrast, the term learning 
disabilities was first used only in 1962.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dyslexia differs markedly from all other learning disabilities. 
Dyslexia is very specific and scientifically validated: we know its 
prevalence, cognitive and neurobiological origins, symptoms, and 
effective, evidence-based interventions. Learning disabilities is a 
general term referring to a range of difficulties which have not yet 
been delineated or scientifically validated. Learning disabilities are 
comparable to what in medicine are referred to as ``infectious'' 
diseases, while dyslexia is akin to being diagnosed with a strep 
throat--a highly specific disorder in which the causative agent and 
evidence-based treatment are both known and validated.
                        epidemiology of dyslexia
    Scientific studies in a range of disciplines provide epidemiologic, 
cognitive and neurobiological data to characterize dyslexia. 
Epidemiologic data from sample surveys, in which each individual is 
assessed, indicate that dyslexia is highly prevalent, affecting one in 
five--yes you read this correctly. It is not the stated prevalence 
often quoted. Why? The why is the reason we are here today--schools far 
too often fail to acknowledge, much less identify, students who are 
dyslexic. Consequently, schools will report low, but incorrect numbers 
of students affected. If dyslexic children are not identified, they 
cannot be counted.
    Many believe that even this one in five estimate may be too low. 
For example, data from the 2013 National Assessment of Educational 
Progress (NAEP, the Nation 's Report Card) indicate that two in three 
students in 4th or 8th grade are not proficient readers. Among some 
groups of students the numbers are far worse. The NAEP data show that 
four in five African American, Latino and Native American students are 
not proficient readers. Many would consider this to be an out-of-
control epidemic of reading failure, and considering its negative 
consequences, a national crisis demanding action. Longitudinal studies, 
prospective and retrospective, indicate dyslexia is a persistent, 
chronic condition; it does not represent a ``developmental lag.''
    Sample surveys in which every subject has been individually 
assessed show relatively equal numbers of males and females affected. 
Studies based on school-based identification show a high male 
prevalence with accompanying data indicating that the often disruptive 
behaviors of the boys in the classroom play a strong role in bringing 
them to the attention of their teacher with subsequent referral. Girls 
who may be struggling readers, but who are sitting quietly in their 
seats, far too often fail to be identified.
    Dyslexia has no known boundaries, it is universal, affecting 
virtually all geographic areas, and both alphabetic and logographic 
languages. For example, my book. Overcoming Dyslexia. (Knopf) has been 
translated, as expected, into alphabetic languages (Portuguese, Dutch, 
Croatian, etc.) but also, a surprise to me, logographic scripts 
including Japanese and Korean and most recently, Chinese. In addition, 
dyslexia occurs in every ethnic, race and socio-economic class.
                      neural signature of dyslexia
    Converging evidence using functional magnetic resonance imaging 
(fMRI) from our own and laboratories around the world has identified 
three major neural systems for reading in the left hemisphere, one 
region, anterior, in Broca's area and two regions posterior, one in the 
parieto-temporal (or Wernicke's area), and another, in the occipito-
temporal region, often referred to as the word form area. Furthermore, 
such fMRl studies indicate that in dyslexic readers, the posterior 
neural systems are functioning inefficiently, providing a neural 
signature for dyslexia. Critically, these posterior neural systems 
appear to be important in skilled, automatic reading and inefficient 
functioning in these neural systems suggest an explanation for the 
slow, effortful reading characterizing dyslexic readers. Recent studies 
of brain connectivity by us and others demonstrate that in dyslexic 
readers there is reduced connectivity to the posterior neural systems 
responsible for skilled. automatic reading.
                       in dyslexia: an action gap
    So what's the problem? The good news is that our problem is a 
solvable one. Of course, we are always seeking new knowledge. In 
dyslexia there is sufficient high quality scientific knowledge to help 
and to turn around the lives of so many struggling children. In 
dyslexia, remarkably in America, in the year 2015, we have not a 
knowledge gap but an action gap. We have the knowledge but it is not 
being put into policy and practice and far too many children and 
adults, too, are suffering needlessly. There is an epidemic of reading 
failure that we have the scientific evidence to treat effectively and 
we are not acknowledging or implementing it. It is our hope that 
hearing the depth and extent of the scientific knowledge of dyslexia 
will alert policymakers to act and to act with a sense of urgency.
    The really good news: Science is there for those who are dyslexic. 
We must align education with 21st century science. A major step in 
bringing science and education together is the Cassidy-Mikulski Senate 
resolution 275 which provides the most up-to-date. universal, 
scientifically valid definition of dyslexia incorporating scientific 
advances in understanding dyslexia, especially, its unexpected nature, 
and represents a landmark in aligning science and education.

    STATEMENT OF SALLY E. SHAYWITZ, M.D., AUDREY G. RATNER 
 PROFESSOR IN LEARNING DEVELOPMENT AND CO-DIRECTOR OF THE YALE 
 CENTER FOR DYSLEXIA AND CREATIVITY, YALE UNIVERSITY SCHOOL OF 
                    MEDICINE, NEW HAVEN, CT

    Dr. Sally Shaywitz. In working toward translating all of 
the great scientific progress we have in each practice, the 
first step is recognizing what is dyslexia, what does dyslexia 
look like? I will just say here, it is not reversing letters. 
That is the first answer 90 percent of the people will say.
    This is a model that we developed, a conceptual model of 
dyslexia, to recognize the paradoxical nature of dyslexia. We 
are using a pointer, but it just isn't showing up on the 
screen.
    In the center, you see an encapsulated weakness in getting 
to the sounds of words. Initially, it manifests as decoding 
difficulties and then difficulties in fluency.
    That is difficulty. There are also strengths, higher level 
strengths, as you can see on the slide, in reasoning, concept 
formation, problem-solving, vocabulary, and critical thinking. 
The goal is to recognize the weakness and remediate it, but 
also recognize the strengths and make sure students who are 
dyslexic can access those strengths, most often through 
accommodations.
    This is a really important slide because dyslexia is an 
entity where we know the origin of the difficulties, which is 
getting to the sounds of spoken language. It is not a mystery. 
But what are the symptoms? What can parents and teachers and 
others look for?
    If you have difficulty getting to the sounds of spoken 
language, you are going to have problems with spoken language, 
and particularly, for children, with word retrieval. A child 
knows what he or she wants to say, but it doesn't come out of 
his or her mouth. You can imagine how embarrassing that can be.
    People who are dyslexic have difficulties getting to the 
sound of spoken words, so they have trouble pulling apart a 
spoken word and then attaching the letters to the sound that it 
represents. Therefore, you have difficulties in reading 
accuracy and reading fluency.
    Reading is decoding, and spelling is encoding. You have 
differences going from the sound of the spoken word to putting 
it into print, spelling difficulties. If you have difficulties 
getting to the sound of your primary language, imagine what 
happens when you are trying to learn a second language. There 
are great difficulties in trying to learn a second or foreign 
language.
    We know so much, but at the same time, and almost 
unbelievably, there are barriers that are preventing the great 
scientific knowledge we have, that can help so many children to 
be implemented.
    Some of the major barriers are schools--yes, schools--who 
apparently or seemingly are unwilling to diagnose or even 
accept a diagnosis of dyslexia. Schools will say, ``We don't 
believe in dyslexia.'' My response to that is, if you are 
talking about religion, you can pick what religion to believe 
in. If you are talking about a scientifically validated entity, 
it is not yours to believe in or not. It is yours to accept and 
use the science.
    Also there are barriers and failure to provide evidence-
based interventions and accommodations.
    This is also very important. It is the failure to address 
the whole child, to only think of this part or that part and 
ignore the whole child.
    Here is something we are very, very excited about. This is 
a paper in the Journal of Pediatrics that is online now and 
will be officially published in the Journal in November, next 
month. What this does is we direct a longitudinal study, so we 
were able to look--the orange are typical readers and the blue 
are dyslexic readers.
    What is the trajectory of reading over time? You can see 
right at the beginning, it says one below. At first grade 
already--already in first grade--there is a large achievement 
gap that has a very powerful influence over what happens after. 
We have to get to that gap early. We cannot wait until third 
grade. We have to begin to address this right at the beginning 
of schooling.
    So what do you do? What is the most effective reading 
intervention for dyslexia? This is something that Dr. Bennett 
Shaywitz and I think about a great deal. We are very fortunate 
that we have opportunities to visit schools nationally, public 
schools, private schools, parochial schools, specialized 
schools. We sit on the boards of quite a number of these.
    First of all, we now emphasize, by the data showing the 
achievement gap present in the first grade, early diagnosis 
leading to early intervention, and screening of dyslexia early.
    All of our knowledge and all of our clinical experience 
have come to the very strong conclusion that children who are 
dyslexic require not 45 minutes two times a week but a 
specialized school that focuses on the whole child and 
providing effective interventions.
    What is important is the school climate, school climate 
plus the atmosphere. For a dyslexic child, it cannot be your 
reading interventionist knows about dyslexia, but no one else 
does. You need to have everyone on board, from the principal to 
the teachers to the phys ed--everybody needs to be on board.
    Small classes, you cannot do this with large classes. You 
must have small classes.
    You have to use evidence-based methods--methods that have 
evidence that have proven effectiveness.
    You need to have knowledgeable, flexible teachers.
    This is really important, consistency in instruction across 
all classes. What happens to the child who is pulled out, 
receives his or her 45 minutes, and then goes to a class in 
history or social studies where the teacher is clueless and 
doesn't understand why when he is asked to read aloud he cannot 
or why he needs extra time?
    You also require constant communication between teachers. 
You need a team and not one isolated instructor.
    We visited schools that were specialized schools in 
dyslexia. There is a wonderful school in Westchester County, 
NY, and now Manhattan as well. It is great. How many of us have 
$52,000 a year for tuition?
    That is going to work for the top SES group, but what about 
everybody else, particularly the disadvantaged?
    There is another model. I am so proud to know it and to 
have visited it and to watch it grow and prosper. This is the 
Louisiana Key Academy that is free to all dyslexic children. 
Here you see one of my heroes, Dr. Laura Cassidy, who founded 
and is intimately involved with the school, the principal 
Evelyn, and one of the teachers, and one of the students.
    I am glad Senator Cassidy mentioned accommodations. They 
are essential for dyslexic students. They are based on 
scientific knowledge, the law, and ethics.
    With the child, you have a child who can think at the 
highest levels but can't read fluently; that is, quickly or 
automatically. It becomes critical to ensure that a test 
measures ability rather than disability.
    Basically, accommodations level the playing field, and 
especially in high-stakes tests. The tests must be appropriate 
for dyslexic students or the results will be incorrect. 
Accommodations are supported by scientific knowledge, by 
Americans with Disabilities Act, and by ethics. I just want to 
quickly show you that we have neurobiological evidence for 
requiring extra time.
    Basically, as you see on the left, in typical readers, this 
is the left side of the brain you are looking at, the systems 
for reading are shown in the front in the green, Broca's area, 
and also two systems in the back, parietal temporal and the 
other, occipital temporal.
    If you are dyslexic, those systems function inefficiently. 
If you see a word and you are a typical reader, you are on the 
express side. If you are dyslexic, that express line is blocked 
off and you have to take an alternate, secondary pathway that 
is much more strenuous and will take you a lot longer. You have 
to work harder and it will take you longer. You will get there, 
but you will be exhausted.
    By our recommendations, we have to align the patient with 
21st century science. Schools must not be allowed to ignore or 
fail to recognize dyslexia, and we have to create and strongly 
support specialized schools for dyslexic students using the 
state-of-the-art Louisiana Key Academy model.
    We have to act now. Children go through childhood once in 
their lives. Our children can't wait.
    We have to use the word ``dyslexia.'' It is specific. It is 
highly relevant and has explanatory meaning. Science provides 
the definition, its epidemiology and cognitive basis, where it 
lives in the brain, development and progression, and long-term 
outcome.
    Especially, it is important for the student to help 
herself, a student who is dyslexic. Knowing what she has is so 
empowering. It helps the student for the first time to 
understand what they have, to be aware of what they have, and 
understand what they need in order to succeed.
    Also very often for the first time, it provides students 
with a community to join, to know they are not alone.
    And importantly for the student, the knowledge that he or 
she is dyslexic brings with it the powerful information that 
they are not stupid or lazy. Sometimes teachers call them one 
or the other, and they become to think that. When you know what 
dyslexia is, it frees them from that misunderstanding.
    We want to thank you, and we are so delighted that we are 
having this hearing. Dyslexia is so prevalent, so well-
understood scientifically, and it is so important to address 
the needs of these children, particularly through specialized 
public charter schools.
    [The prepared statement of Dr. Sally Shaywitz follows:]
             Prepared Statement of Sally E. Shaywitz, M.D.
    Good morning Senator Cassidy and fellow panel members. I too, thank 
you for the opportunity to speak with you about the science of dyslexia 
and share with you the tremendous scientific progress that has been 
made in dyslexia. Following Dr. Bennett Shaywitz, I, too, will focus my 
statement on dyslexia as an explanation and potential solution to the 
national epidemic of reading/school failure.
    My name is Sally Shaywitz and I am a physician-scientist. The 
Audrey G. Ratner Professor in Learning Development and co-director of 
the Yale Center for Dyslexia & Creativity at the Yale University School 
of Medicine. I am a member of the National Academy of Medicine of the 
National Academy of Sciences, and have served on the Advisory Council 
of the National Institute of Neurological Diseases and Stroke (NINDS). 
the National Research Council Committee on Women in Science and 
Engineering, co-chaired the National Research Council Committee on 
Gender Differences in the Careers of Science, Engineering and 
Mathematics Faculty and have served on the congressionally mandated 
National Reading Panel and the Committee to Prevent Reading 
Difficulties in Young Children of the National Research Council. I am 
also the recipient of an Honorary Doctor of Science degree from 
Williams College.
    I speak to you as a physician-scientist. As a physician, I have all 
too many memories of sitting by an ailing child's bedside, wishing so 
desperately that we had the knowledge to help that child. As a 
physician I know the power of science and how once new knowledge 
becomes available we act quickly, indeed, race to put that knowledge to 
good use. We want to close that knowledge gap and improve the lives of 
the affected children. When I sat on the Advisory Council of the 
National Institute of Neurological Disorders and Stroke, we constantly 
asked ourselves: how have we benefited mankind, how has our research 
improved the well-being of children and adults.
    Given that there has been so much scientific progress, we must take 
definitive steps to translate this remarkable scientific progress into 
practice. A fundamental question we can now address is what is dyslexia 
and what does dyslexia look like.
                        the paradox of dyslexia
    Dyslexia is a paradox, the same slow reader is often a very fast 
and able thinker--giving rise to our conceptual Sea of Strengths model 
of dyslexia as a weakness in getting to the sounds of spoken words 
surrounded by a sea of strengths in higher level thinking processes 
such as reasoning and problem solving. Reflecting this paradox are many 
eminent dyslexics--financier Charles Schwab, attorney David Boies, 
cardiac surgeon Dr. Toby Cosgrove, Hollywood agent Ari Emanuel, 
producer Brian Grazer and economist, Diane Swonk. On the other side of 
the coin, are many who are not identified, do not receive evidence-
based instructiond, continue to struggle to read and see themselves as 
failures. Sadly, these boys and girls have no knowledge of what their 
difficulty is or that it even has a name, have no self-understanding, 
come to view themselves as dumb or stupid, see themselves as not meant 
for school, suffer low self-esteem, often drop out of school with a 
loss to themselves, to their families and to society.
understanding the origin of the difficulties leads to an understanding 
                      of the symptoms of dyslexia
    With the phonologic deficit recognized and validated, it is now 
possible to understand and to predict the symptoms emanating from this 
basic difficulty, which can be both observed and measured, resulting in 
an accurate diagnosis of dyslexia. Dyslexia is a language-based 
difficulty and impacts spoken language, for example, word retrieval 
difficulties: reading, initially impacting reading accuracy and then 
reading fluency, the ability to read not only accurately, but also 
rapidly and automatically with good understanding. Not being able to 
read automatically, dyslexic readers must read what I refer to as 
``manually,'' requiring the output of large amounts of effort and 
consuming much of the individual's attention. A dyslexic reader lacks 
fluency meaning that he reads slowly and with great effort, although he 
may understand the content at a high level. Importantly, the dyslexic's 
vocabulary and comprehension may be quite high. Spelling is also 
problematic as is learning a foreign language--all reflected in the 
Cassidy-Mikulski Senate Resolution 275.
  barriers to utilizing scientific knowledge to enhance the education 
                          of dyslexic students
    Unfortunately, scientific knowledge is not being utilized by far 
too many schools. The major barriers include: schools that are 
unwilling to diagnose or accept a diagnosis of dyslexia and schools 
that don't ``believe'' in dyslexia. As a consequence, students are hurt 
by the failure of these schools to provide evidence-based interventions 
and accommodations. In addition, the lack of understanding of dyslexia 
leads to a failure to address the needs of the whole child. As noted, 
dyslexia affects: spoken language, reading accuracy and reading fluency 
and the ability to read math problems, to spell and to learn a second 
or foreign language. These struggles particularly when not addressed 
lead to anxiety and at times depression and loss of self-esteem, often 
with negative life-long effects.
        reading gap already present by first grade and persists
    Scientific knowledge, too, has delineated the progression of 
reading development. Reading growth is most rapid early on, during the 
first few years of school and then plateaus. In a report to be 
published in November 2015, we report the results of a longitudinal 
study of reading from first grade to 12th grade and beyond. We find 
that as early as first grade, compared with typical readers, dyslexic 
readers had lower reading scores and their trajectories over time never 
converge with those of typical readers. These data demonstrate that 
such differences are not so much a function of increasing disparities 
over time but instead because of differences already present in first 
grade between typical and dyslexic readers. We conclude that the 
achievement gap between typical and dyslexic readers is evident as 
early as first grade, and this gap persists into adolescence. These 
findings provide strong evidence and impetus for early identification 
of, and intervention for, young children at risk for dyslexia. 
Implementing effective reading programs as early as kindergarten or 
even preschool offers the potential to close the achievement gap.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

              national reading panel and teaching reading
    Fortunately, thanks to congressional action there is now strong 
evidence of what treatment elements are effective in teaching children 
to read. In 1998 Congress mandated the formation of a National Reading 
Panel to investigate the teaching of reading. I was proud to serve on 
the panel which produced the Report of the National Reading Panel. As a 
result, today it is no longer acceptable to use reading programs 
lacking scientific evidence of efficacy: instead it should be mandatory 
to use programs that are evidence-based, proven to be effective in the 
same way that medications must be tested and proven to be effective 
before they can be approved by the FDA. Our children deserve no less. 
And yet, today, this powerful information is not being used in schools, 
children are not learning to read and giving up, and not reaching their 
full potential. We have what amounts to an educational emergency in the 
United States. Children are not learning to read with serious academic, 
economic and health consequences including, school drop-out, being half 
as likely to go on to college, significantly lower lifetime earnings, 
significantly higher unemployment, higher rates of mental health issues 
such as often incapacitating anxiety, and as reported in 2013. 
significantly higher mortality rates related to lack of a high school 
diploma. These harsh consequences harm not only the dyslexic individual 
but place our country at a competitive disadvantage.
              effective reading intervention for dyslexia
    There is much known scientifically and clinically about dyslexia 
and its impact on children. Synthesizing that information brings with 
it the strong suggestion that a dyslexic child is best served, first by 
early diagnosis which should lead to early intervention, especially 
that there are now data indicating, as noted above, that the 
achievement gap is already present and large at first grade. The size 
of this gap makes it exceedingly difficult to overcome with time. It 
provides a strong impetus to identify and address dyslexia very early 
in the student's school career. Assessment for phonological skills 
early on and/or having the child's teacher complete a relatively short 
questionnaire, such as the Dyslexia Screening Measure (DSM) which is 
based on longitudinal data, can provide data with good sensitivity and 
specificity indicating a child's risk of being dyslexic.
    Currently, dyslexic children are either not identified, and even 
if, identified provided with pull-out instruction of about 45 minutes 
several times a week. The child feels isolated and embarrassed. S/he is 
often teased and/or bullied, and returns to a class where s/he has 
missed the instruction other students have received. Most of his/her 
teachers have no idea of what dyslexia is, and believe it is reversing 
letters. This means that teachers in the child's other classes such as 
social studies, science or biology, math or literature are totally 
unprepared to understand or educate the dyslexic child. These educators 
have no or little idea of the student's reading level and how to best 
address the child's reading, writing, spelling and word retrieval 
difficulties. Points are taken off for mis-spellings in history, a 
student's difficulty in reading the words in a math problem are 
mistakenly ascribed to lack of understanding of math principles and so 
it goes. It is critical that the dyslexic child is in a school where 
the entire faculty is on board and understands dyslexia and how best to 
address the needs of a child who is dyslexic.
    Dyslexic students require frequent opportunities to interact with 
their instructor; this is only possible in small groups as noted by the 
Report of the National Reading Panel. In large groups, dyslexic 
students have little opportunity to interact with the instructor, 
perhaps once during a period, if that. This is totally insufficient and 
does not provide the opportunity for the instruction to take hold. 
Methods must be based on evidence and not anecdote or belief systems, 
e.g., ``I know in my heart that this methods works. I believe in it.'' 
Teachers must be knowledgeable about dyslexia and flexible. Dyslexic 
students are not fluent readers, this means that they may know how to 
read one moment and then, a short while later, not be able to decipher 
the very same word. It is imperative that teachers understand the 
impact of lack of fluency on reading, and similarly, are aware that if 
a dyslexic student is called on to read aloud, it is often unbearably 
embarrassing or if she is asked a question, her word retrieval 
difficulties arising from her dyslexia may result in her not being able 
to retrieve the correct word--due not to a problem in higher level 
cognitive functioning or lack of knowledge but due to her inability to 
access and retrieve the sounds of the words that are needed for her to 
articulate the word correctly. Students are in a school during the day 
going to many classes: it is critical that the child's teachers are 
united and function as a knowing and caring team that is fully aware of 
where the child is in his/her reading, how s/he is being instructed and 
the effective approaches to supporting this student in each teacher's 
subject class and is aware of, and following, the student's progress 
carefully. This requires teachers to function as a team, that is, to be 
in constant contact with one another and there to be on-going 
consistency in instruction.
    The most effective models that work for dyslexic students are 
specialized schools specifically for these students. There are a number 
of such specialized schools for dyslexic students nationally. Students 
attending such schools benefit, learn to read and succeed in their 
academic work and come to appreciate, too, that they are not stupid. 
However, what these independent schools have in common is high tuitions 
that many middle-class parents, and certainly not disadvantaged 
families, can afford. What is wonderful to see is a new model that has 
been developed, one exemplified by the Louisiana Key Academy (LKA) 
started by Dr. Laura Cassidy, which is a free public charter school 
that brings into the school and each and every classroom all the 
scientific knowledge now known about dyslexia, along with a deep 
understanding and concern for each student at the school. I have 
personally visited the school, spoken with teachers, students and 
parents and was elated to see how well the students are learning. how 
they now viewed themselves as learners rather than as school failures, 
and, perhaps, most importantly, how much pride and self-esteem they 
have developed. It is very powerful to be at a school where you are 
part of a community of dyslexic students who are bright and where you 
are no longer viewed as different, inferior and not part of the group. 
Given the terrible epidemic of reading and school failure, and the high 
prevalence of dyslexia of one in five, we must ensure that LKA is 
sustainable and strongly supported. This school has made an 
extraordinary difference for so many dyslexic students who were 
previously ignored, feared going to school and were on the path to 
academic, and sadly, life failure. The difference this school has made 
in these students' lives is breath-taking and life-affirming. This 
opportunity for a chance at success must be made available to every boy 
and girl who is dyslexic, especially those who are disadvantaged or 
African American. We, as a society, must do no less; having successful 
learners will not only benefit the student, but his family and 
community, and, indeed, the Nation. The model of LKA, a free public 
charter school is a model that works, a school that provides the needed 
``all hands on board'' climate and instruction to dyslexic students. 
Critically LKA addresses the needs of the whole child the entire day 
rather than the artificial belief that giving a child a package of 
instructions for a period a day will address the significant and on-
going needs of a dyslexic child.
                             accommodations
    Given that a student who is dyslexic has both a weakness and 
strengths, it is critical that, for example, tests, both in school and 
on high stakes standardized examinations and Common Core assessments 
actually measure the student's ability and not his disability. The 
dyslexic student may learn to read fairly accurately but hardly ever 
with fluency; he remains a slow reader albeit a quick thinker. These 
dyslexic students may know the answer to a test question, but as a 
result of their slow reading never get to reach many questions or to 
finish the test, the student simply runs out of time. Or, she is so 
anxious about finishing the exam that she races through it and misses 
questions which, given the needed time, she would be able to answer 
correctly. Thus, it is critical that students who are dyslexic receive 
the accommodation of extra time; it is not a perk but a necessity if 
the result of the test is to reflect that student's knowledge. In 
adolescents and young adults applying for high-stakes standardized 
tests for college, graduate or professional schools, the Americans with 
Disability Amendment Act (ADAA) of 2008 is highly supportive of the 
need for accommodations for those with disabilities like dyslexia that 
impair a major life activity like reading. The ADAA regulations also 
state that students should receive accommodations even if they are 
doing well in school, it is not the outcome of their performance but 
rather what they have to do to achieve the outcome.
    High school and college students with a history of childhood 
dyslexia often present a paradoxical picture; they may be similar to 
their unimpaired peers on measures of comprehension, but they continue 
to suffer from the phonologic deficit that makes reading less 
automatic, more effortful, and slow. Neurobiological data provide 
strong evidence for the necessity of extra time for readers with 
dyslexia. Functional MRI data demonstrate that in dyslexic readers the 
word-form area, the region supporting rapid reading, functions 
inefficiently. Readers compensate by developing anterior systems 
bilaterally and the right homolog of the left word-form area. Such 
compensation allows for more accurate reading, but it does not support 
fluent or rapid reading. For these readers with dyslexia, the provision 
of extra time is an essential accommodation, particularly on high 
stakes tests such as SAT, ACT and tests for professional schools such 
as LSAT, MCAT and GRE--and for the Common Core tests. The accommodation 
of extra time allows the student time to decode each word and to apply 
his unimpaired higher order cognitive and linguistic skills to the 
surrounding context to get at the meaning of words that he cannot 
entirely or rapidly decode. While readers who are dyslexic improve 
greatly with additional time, providing additional time to non-dyslexic 
readers results in very minimal or no improvement in scores.
    A special word about the Common Core State standards (CCSS) and 
tests such as PARCC, which are designed to assess whether students are 
meeting the CCSS. It can be stated unequivocally, that the CCSS and 
accompanying tests such as PARCC are totally inappropriate for students 
with dyslexia. Such tests are based on the mistaken belief that all 
students, including dyslexic students, will be fluent readers by the 
end of second grade and that all students should read at grade level 
and above, clearly an expectation that flies in the face of all that 
has been learned about the development of reading in dyslexic children.
    Furthermore, CCSS and PARCC are based on the belief that 
comprehension-
focused reading instructions using ``complex text'' should be the basis 
of reading instructions, ignoring whether or not the student can 
actually read the words in the ``complex text.'' This has had serious 
implications for dyslexic students. For example, the PARCC test for 
third-grade students is more targeted to the reading level of students 
in fifth grade and focused on reading comprehension. This has had the 
pernicious effect of schools dropping all other instruction, including 
the much-needed decoding instruction, to focus almost exclusively on 
comprehension. In addition, it is well-known that multiple choice 
questions in the PARCC are inappropriate for students who are dyslexic. 
Common Core's overwhelming focus on comprehension may be appropriate 
for students in high school but is wholly inappropriate for children in 
very early grades, especially dyslexic students who are invariably 
still struggling with and working hard to master decoding.
    Although providing extra time for reading is by far the most common 
accommodation for people with dyslexia, other helpful accommodations 
include allowing the use of computers for writing essay answers on 
tests, access to recorded books and text to voice software. Other 
helpful accommodations include providing access to syllabi and lecture 
notes, tutors to ``talk through'' and review the content of reading 
material, alternatives to multiple-choice tests (e.g., reports or 
projects), waivers of high-stakes oral exams, a separate, quiet room 
for taking tests, and a partial waiver of the foreign language 
requirement. Dyslexic students who have difficulty accessing the sound 
system of their primary language will, almost invariably, have 
difficulties learning a foreign language. Students with dyslexia most 
often have no difficulty with the mastery of high level courses. The 
problem lies in their lack of fluent, rapid reading so that it is the 
time necessary for them to read through the materials that is 
problematic. Many rigorous schools allow these students to take one 
course less during the school year and take this course during the 
summer. With such accommodations, many students with dyslexia are 
successfully completing studies in a range of disciplines, including 
science, law, medicine and education. It is accommodations such as 
these that are encouraging and allowing more students who are dyslexic 
to enter and to succeed in STEM fields.
          summary and implications of the science of dyslexia
    Yes, dyslexic children can learn to read and must be taught to 
read. It is imperative that teachers and parents learn about the 
powerful science of dyslexia, know how to identify dyslexia early on 
and to provide a positive climate where the entire school faculty is 
on-board in understanding and teaching students who are dyslexic. This 
can only take place in specialized schools where dyslexic students are 
understood, taught by evidence-based methods and are part of a 
community that they are welcomed into, rather than being isolated. We 
must not give up on teaching dyslexic children and limit a child's 
future options. Education must, and can be, aligned with science. To 
best serve the dyslexic child, we must serve the whole child throughout 
the school day and not limit his education to a 45-minute pull-out once 
a day.
    We must ensure that scientific knowledge is translated into policy 
and practice and that ignorance and injustice do not prevail. We know 
better, we must act better.
    I cannot look into the face of one more child who has lost faith in 
himself and the world, I cannot look into the face of a child's father 
who is desperately trying to hold back tears; I cannot hear once again 
about how a school told a mother, ``we do not believe in dyslexia.''
    As an iceberg is 90 percent underwater with only 10 percent 
visible; similarly, in dyslexia, we hear about the 10 percent who have 
made it. Let's not give up on the invisible 90 percent still underwater 
asking, indeed begging, to be helped.
    I am optimistic, once Congress, educators and parents are aware of 
the strong science of dyslexia, educators will want to align their 
practices and policies with 21st century science. Congress, in 
particular, can do much to address the needs of dyslexic students, to 
transform struggling students who do not see themselves as learners 
into empowered learners who see themselves as having a positive future. 
First and foremost, it is critical that all recognize that dyslexia 
cuts across all boundaries--ethnic, racial, SES, gender, national and 
political. All including Republicans and Democrats must come together 
on this human issue; dyslexia is not, and should not, be used as a 
political issue. Recognizing and addressing dyslexia, the explanation 
and potential solution to our terrible epidemic of reading and academic 
failure is in the interest of the one in five who are dyslexic, their 
families and our Nation. I congratulate Senators Cassidy and Mikulski 
who have come together to sponsor the bipartisan Senate Resolution 275 
that provides a 21st century definition of dyslexia and states, 
unequivocally, that dyslexia has significant educational implications. 
Isn't it time that the IDEA written first in 1974 joins the 21st 
century science and gives dyslexia the primacy it deserves, rather than 
being lost in the verbiage as an afterthought. Let's rise above 
political interests, acknowledge dyslexia and 21st century knowledge of 
dyslexia, including its prevalence, definition, identification, 
provision of not only evidence-based instruction but, critically, 
strong support for specialized schools for dyslexic students, schools 
whose climate of having everyone on-board and instructional methods 
allow dyslexic students to have their strengths, rather than their 
weaknesses characterize their future lives.
    Schools must not be allowed to ignore or fail to recognize 
dyslexia. We must act now. This requires creating and supporting 
specialized schools for dyslexic students using the state-of-the-art 
LKA model. We must always keep in mind: OUR CHILDREN CAN'T WAIT.
    For far too long, the word and the condition it represents, 
dyslexia, has been overlooked, not said and not used, much to the 
detriment of the millions of children who are dyslexic. Dyslexia is 
specific, highly relevant and carries with it explanatory meaning. 
Science provides its definition, epidemiology, cognitive basis, 
neurobiolog-
ical basis, developmental progression, and long-term outcome.
    Perhaps, most important of all, the greatest beneficiary of knowing 
who she or he is, is the dyslexic student him/herself. To know what you 
have has a name and explains so much of what you experience on a daily 
basis and lets you know that you are intelligent, even if you can't 
read quickly, is incredibly empowering. I have had the experience of 
telling so many children (and adults, too) that they are dyslexic and 
what that means. The absolute relief this provides can be life-
changing, and indeed, life-saving. Knowledge that you are dyslexic 
provides the student with self-understanding and self-awareness of what 
s/he has and what s/he needs to do in order to succeed. Furthermore, 
such knowledge provides students with a community to join--for many, it 
is the very first time they know they are not alone. For his or her 
parent, teacher and importantly, the student, knowledge that s/he is 
dyslexic brings with it the information that the individual is not 
stupid or lazy.
    Top priority recommendation:

    Given that dyslexia affects the whole child in every class 
throughout the school day it seems reasonable to strongly encourage the 
creation of specialized charter schools that focus solely on dyslexia. 
Recognizing the rapid growth in reading in the very first years of 
school and the already present gap by first grade the school should 
begin as early as possible, by kindergarten or first grade. The goal is 
to reach children at-risk for dyslexia early on when reading 
intervention can be maximally effective and before the students fall 
further and further behind. At such specialized charter schools, such 
as the Louisiana Key Academy, the entire educational team from 
principal to classroom teacher to physical education instructor 
understand dyslexia, it impact students in various situations and are 
on board to support the students throughout their day. Here, students 
learn and there is no bullying by students or frustration expressed by 
teachers who may not understand the impact of dyslexia. These schools 
can also serve as resources where teachers can come, spend time and 
learn about dyslexia, what it is and how it impacts a student and learn 
specific evidence-based methods for teaching reading to dyslexic 
students and how to best implement these methods.
    Other Recommendations:

    <bullet> Schools must not be allowed to ignore, fail to recognize 
or deny the reality or diagnosis of dyslexia.
    <bullet> Schools, including teachers, principals and other 
administrators and parents should make every effort to use the word 
dyslexia since it has specific, highly relevant and explanatory 
meaning; science has provided its: definition; epidemiology; cognitive 
basis; neurobiological basis; developmental progression; and long-term 
outcome. For dyslexia, knowledge of its cognitive basis indicates what 
symptoms to look for so that symptoms of dyslexia in the classroom (and 
at home) are noted and acknowledged rather than as currently happens, 
ignored or overlooked. This greater awareness and understanding of 
dyslexia and its impact will benefit both the teacher and student both 
in the teaching of reading and in the climate and attitudes within the 
classroom.
    <bullet> Using the word dyslexia provides a common language 
facilitating communication among teachers, clinicians, scientists and 
parents.
    <bullet> For the student, the knowledge that he is dyslexic is 
empowering, providing the student with self-understanding and self-
awareness of what he has and what he needs to do in order to succeed.
    <bullet> For students, knowledge that they are dyslexic also 
provides a community to join--they know they are not alone.
    <bullet> For the parent and teacher, and importantly the student, 
knowledge that he or she is dyslexic brings with it the information 
that the individual is not stupid or lazy.
    <bullet> Critically important is that schools must use evidence-
based programs that have proven efficacy; research-based simply 
indicates that there are theoretical suggestions but does not provide 
evidence that the program is, indeed, effective. Evidence-based 
programs are akin to the level of evidence the FDA requires before a 
medication can be approved for use. Many, many theoretical, research-
based approaches, when tested in the field, prove to be ineffective. 
Our children's reading is too important to be left to theoretical, but 
unproven, practices and methods. We must replace anecdotal and common, 
but non-evidence-based practices, with those that are proven, that is, 
they are evidence-based.
    <bullet> Professional development programs targeted for teachers 
must provide evidence that the students of the teachers using these 
programs actually improve in their reading performance. This is in 
contrast to some professional development programs which seem to 
improve teacher's understanding but not in a way that results in 
improvement in their student's reading performance.
    <bullet> Schools of education must ensure that aspiring teachers 
are taught evidence-based methods to teach reading and have monitored 
experience demonstrating that they are effective in implementing these 
methods.
    <bullet> Scientific evidence that reading growth is maximum in the 
very first few years of school and then plateaus together with new data 
indicating that the reading gap between typical and dyslexic readers is 
already present at first grade and persists means that students must 
receive evidence-based instructions at the start of their school 
experience and their progress carefully monitored. Waiting is harmful 
and not acceptable.

    There is so much more to tell; for those who have questions and 
want to know more, visit the Yale Center for Dyslexia & Creativity 
website: dyslexia.yale.edu or look at my book, ``Overcoming Dyslexia,'' 
which discusses the scientific basis of dyslexia and how to translate 
this knowledge into practice.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Thank you.
    Now we go to Ameer.
    Let me just say, when I saw that slide, I took a picture of 
it, about the Sea of Strengths model of dyslexia. Ameer, I 
looked at you. If you can speak about your testimony, which I 
think shows the issue of decoding in the midst of a sea of 
strengths.

           STATEMENT OF AMEER BARAKA, AUTHOR/ACTOR, 
                        NEW ORLEANS, LA

    Mr. Baraka. First, I want to say good morning to everyone 
who is here. I want to thank the Senator and his wife and the 
panelists for their participation, particularly for allowing me 
to be here.
    It is pretty disturbing. Every time I look at something 
like that or listen to that lady and seeing that chalkboard 
with comprehension, reading, the diagram that she has, I find 
it very difficult. Even as a man, as a grown man right now, 
there is a sense of shame. It is not as overbearing as it was 
years ago, but it still lies there, dormant, waiting to be 
activated by things like that because it is facts. It is facts.
    Both brothers and sisters of mine who went on to college 
did extremely well. I couldn't get it.
    I am going to read my testimony to you guys. This is my 
story. This is my pain. This is my struggle and, ultimately, my 
success.
    I first would like to thank the committee for allowing me 
the opportunity to tell my story. I also would like to thank 
Senator Bill Cassidy and his wife for what they do to help 
those who struggle with dyslexia.
    As a young kid living in abject poverty, it was hard on my 
mother, who was trying to raise three kids. My two siblings 
effortlessly excelled in school, and there was joy around their 
accomplishments. For some reason, I wasn't able to understand 
what was being taught.
    My mother and my siblings couldn't understand why school 
didn't come as easily for me, so I was called stupid, dumb, and 
other names that pushed me into darkness and shyness. I became 
disengaged with school and believed that I just might really be 
dumb because I couldn't read.
    In third grade, I started cutting school and would sleep in 
the project hallways on Fridays to avoid spelling tests. There 
was one teacher who tried to help me, but by this time, it was 
too late. I created this distorted image of myself, and nothing 
was going to alter it.
    I was incarcerated by my own self-imposed limitations. I 
couldn't read or spell, and my family and peers made that very 
clear to me.
    I'll never forget the day I was called upon to read out 
loud in the sixth grade. Other kids had their hands up eager to 
read, but the teacher must have seen me with my head down, 
trying not to be noticed. It was the most embarrassing moment 
of my life. I didn't know a single word, and I struggled to 
read the paragraph.
    As I look back now, I can't imagine how teachers kept 
pushing me to the next grade. That day I made up my mind that I 
was never going back to school.
    Shortly after that incident in school, I was introduced to 
a drug dealer by another friend who had given up on school as 
well. This was my solution because dealing drugs required no 
reading. I would pray at night for God to help me become a big-
time drug dealer so I could help my family and community.
    Making that choice seemed like my best and only option. I 
did really well and felt good about myself in the drug world. 
No one called me dumb or stupid, and we all basically shared 
the same mindset about hating school.
    I made a few attempts to get back into school to alleviate 
my mother's concerns about my future, but it was not 
successful. I would just show up for a couple hours and leave 
to get back to dealing my drugs.
    I bought into the lies of the streets, that real men get 
money by any means necessary and to protect their block, even 
if it came down to using guns.
    I took another kid's life because he was dealing in my 
projects, and that was a no-no if you weren't from my projects. 
After serving a year for manslaughter as a juvenile, I was 
released.
    I still couldn't read, so I got right back into the 
lifestyle of dealing drugs. As time went on, I was getting 
deeper into this life and was eventually caught with a lot of 
drugs and was facing 60 years in prison.
    With God's help, I was found guilty and received a lesser 
sentence of 4 years.
    That's when the metamorphosis took place. I wanted to learn 
to read. My GED teacher in prison realized that I was reading 
poorly and had me tested for a learning disability. Dyslexia 
was a word I had never heard until I was in prison. He said, if 
I tried hard enough, I could get my GED.
    Every day after I came out of working in the fields, I 
would go to school and at night stay up learning to spell 
words. It was hard work trying to believe that learning to read 
and getting my GED was possible, but my teacher helped me get 
through it. After 4 years, I attained my GED.
    If someone detected this problem earlier in my childhood 
education, it would have saved me a lot of suffering and 
possibly my time in jail. My self-esteem shot through the roof 
after I received my GED.
    There are so many kids today that have this same issue with 
reading and can't get adequate help because teachers can't 
devote their entire day or class time to one individual student 
who struggles with reading, or they are never diagnosed and 
never understood why they are having so many problems in 
school.
    Also, I read my memoir, The Life I Chose, to many men in 
prison now, and they want to learn to read. We can't wait until 
people get into prison to help them realize their potential.
    I hope the committee will take prevention measures now. 
When a boy or girl can read, anything becomes possible. To 
reduce incarceration, let's get ahead of this epidemic and turn 
lives around early. If it wasn't for teachers in prison and 
God's mercy, I would be dead or in prison with no chance of 
returning to society.
    Reading set me free to dream of becoming an actor, 
producer, and author.
    I appreciate you listening to my testimony, and I hope that 
you share my story with educators around the world.
    This is my story. This is real, people. In this great 
country that we live in, the Founding Fathers did not construct 
the Constitution to leave no one behind. It is for everybody to 
excel.
    For some reason, we are declining now. We have gotten away 
from what the Fathers have said. We have gotten away from 
looking back and helping our fellow brothers and sisters. We 
have become selfish.
    This is evidence-based practices. It is an epidemic. Both 
brothers and sisters of mine went on to college. They did 
extremely well. But I could not get it. I could not get it.
    There are thousands of children I come across daily in 
schools, because I go to schools throughout New Orleans, I go 
to prisons, and people tell me, ``Ameer, I can't read, either. 
Do you think I can read?'' I say, ``Yes, you can read.'' I say, 
``Can your brother and sister read?'' ``Yes, they can read.'' 
``So you can, too, but you have to work hard.''
    They are so in a pit, they have dug themselves so down in 
an emotional pit, they don't even believe. Only by God's grace 
I was able to believe, because there was a white man that told 
me, ``Sit in the front of the class in prison.'' He said, ``If 
you want to read, I am going to help you read.''
    When I had seen what the Senator is doing, and his wife, 
when I went to that school and I saw that there was no 
disparity among race, I said to myself, I want to support these 
people. These people are trying to help people. I am here today 
to let you know that what they are saying is true. I 
experienced it.
    Thank you, and God bless you. May you go out and share the 
message.
    [Applause.]
    [The prepared statement of Mr. Baraka follows:]
                   Prepared Statement of Ameer Baraka
    I would first like to thank the committee for allowing me the 
opportunity to tell my story. I also would like to thank Senator Bill 
Cassidy and his wife for the work they do to help those who struggle 
with dyslexia.
    As a young kid living in abject poverty, it was hard on my mother 
who was trying to raise three kids. My two siblings effortlessly 
excelled in school and there was joy around their accomplishments. But 
for some reason I wasn't able to understand what was being taught. My 
mother and my siblings couldn't understand why school didn't come as 
easily for me. I was called stupid, dumb and other names that pushed me 
into darkness and shyness. I became disengaged with school and believed 
that I just might really be dumb because I couldn't read. In third 
grade, I started cutting school and would sleep in the project hallways 
on Fridays to avoid spelling tests. There was one teacher who tried to 
help me, but by this time it was too late. I created this distorted 
image of myself and nothing was going to alter it. I was incarcerated 
by my own self-imposed limitations. I couldn't read or spell and my 
family and peers made that very clear to me.
    I'll never forget the day I was called upon to read out loud in my 
6th grade class. Other kids had their hands up eager to read but the 
teacher must have saw me with my head down trying not to be noticed. It 
was the most embarrassing moment of my life. I didn't know a single 
word and I struggled to read the paragraph. As I look back now, I can't 
understand how teachers kept pushing me to the next grade. That day I 
made up in my mind that I was never going back to school.
    Shortly after that incident in school, I was introduced to a drug 
dealer by another friend who also had given up on school. This was my 
solution because dealing drugs required no reading. I would pray at 
night for God to help me become a big time drug dealer so I could help 
my family and community. Making that choice seemed like my best and 
only option. I did really well and felt good about myself in the drug 
world. No one called me dumb or stupid and we all basically shared the 
same mindset about hating school. I made a few attempts to get back in 
school to alleviate my mother's concerns about my future, but it was 
not successful. I would just show up for a couple hours and leave to 
get back to dealing my drugs.
    I bought into the lies of the streets, that real men get money by 
any means necessary and to protect their block even if it came down to 
using a gun. I took another kid's life because he was dealing in my 
projects and that was a no- no if you weren't from my projects. After 
serving a year for manslaughter as a juvenile, I was released. I still 
couldn't read so I got right back into that lifestyle of dealing drugs. 
As time went on, I was getting deeper into this life and was eventually 
caught with a lot of drugs and was facing 60 years in prison. With 
God's help I was found guilty of a lesser crime and given 4 years 
instead.
    That's when my metamorphosis took place. I wanted to learn to read. 
My GED teacher in prison realized that I was reading poorly and had me 
tested for a learning disability. Dyslexia was a word I had never heard 
of until I was in prison. He said, if I try hard enough I could get my 
GED. Every day after I came out of working in the fields, I would go to 
school and at night stay up learning to spell words. It was hard work 
trying to believe that learning to read and getting my GED was 
possible. But my teacher helped me get through it and after 4 years I 
attained my GED.
    If someone detected this problem earlier in my childhood education 
it would have saved me a lot of suffering and possibly my time in jail. 
My self-esteem shot through the roof after I received my GED. There are 
so many kids today that have this same issue with reading. They can't 
get adequate help because teachers can't devote their entire day or 
class time to one individual student who struggles with reading. Or 
they are never diagnosed, and never understand why they are having so 
many problems in school.
    Also, I read my memoir book (The Life I Chose) to many of the men 
in prison and now they want to learn to read. We can't wait until 
people get into prison to help them realize their potential. I hope the 
committee will take prevention measures now. When a boy or girl can 
read anything becomes possible. To reduce incarceration, let's get 
ahead of this epidemic and turn lives around early. If it wasn't for 
that teacher in prison and God's mercy, I would be dead or in prison 
with no chance to return to society.
    Reading set me free to dream of becoming an actor, producer and 
author. I appreciate you reading my testimony. Please share it with 
children and educators across the world.
    Thank you for listening.

    The Chairman. Mr. Buquet.

 STATEMENT OF J.J. BUQUET, PRESIDENT, BUQUET DISTRIBUTING CO., 
                           HOUMA, LA

    Mr. Buquet. I have to follow that? Wow.
    [Laughter.]
    Members of the committee, ladies and gentlemen, let me 
begin by thanking you for this opportunity to address you today 
and to share with you my experience with the learning 
disability we know today as dyslexia.
    My name is J.J. Buquet, and I am the son of Jimmy and 
Glenny Lee Buquet of Houma, LA. My mother was a teacher in her 
early years and, therefore, had a background in the field of 
education. She knew what to look for and could sense when 
something wasn't right, as my sisters and I proceeded through 
our formative educational years.
    When I was about 8 years old, my parents recognized that 
there was something wrong. They knew that my sisters and I were 
going to school. We were doing our homework. We were attending 
class, behaving, for the most part. Yet, we were struggling. 
This was around 1974, 1975.
    My mother found a testing facility in Lafayette, LA, that 
was associated with Dr. Charles Shedd and his research with 
learning disabilities. It was then that my older sister, 
Andree, and I were both diagnosed with dyslexia.
    I wasn't quite sure what to make of all this at the time. I 
was 8. I recall feeling a little relieved in knowing that my 
academic struggles were not simply the result of being stupid.
    Your self-esteem can be greatly affected in the classroom 
as other kids are whizzing through their books and math 
problems, and you are having trouble getting past the first 
three sentences. This revelation was a little comforting to me 
at the time.
    The problem was that the K-12 world, both public and 
private, had not really recognized the existence of learning 
disabilities in general, much less something called dyslexia. 
There were no accommodations in existence. Teachers had no 
understanding as to the nature of the problem much less as to 
how to help a child with dyslexia. The school administrators 
had no understanding or real appreciation of the problem and 
were, quite frankly, frustrated at the thought of having to 
deal with kids who fell outside of what they considered to be 
the normal educational process.
    Needless to say, my parents, who were very involved in our 
educational formation, had to fight very hard and advocate 
strenuously on our behalf. And fight they did.
    They began to discuss this discovery of dyslexia with other 
parents in the community and quickly found out that many of 
their friends, other parents, their kids were having trouble. 
Those parents, in turn, had their kids tested. Come to find 
out, their kids also had dyslexia. A small community of parents 
began to coalesce in our community.
    As I look back, they began to approach the problem with a 
two-pronged approach. The first was to work within the 
educational system to advocate for various accommodations. As 
you might expect, some administrators were more willing than 
others to assist.
    I was fortunate. I was given extra time on tests, provided 
special meal plans, and given some in-the-classroom remedial 
training.
    The second thing is, in my opinion, the most important 
thing that occurred. The second thing my parents did was to 
start a Saturday school program in Houma. Every single 
Saturday, from 8 to 12, for 4 years, we all went to a site and 
were given intensive remedial training. This was different from 
anything that you would normally find in a regular classroom. 
The program utilized extensive multisensory methodologies. 
There were multiple one-on-one sessions, running 30 to 45 
minutes each.
    I must tell you that it was this intensive remediation that 
made all the difference in the world for me. I believe that had 
it not been for those efforts and sacrifices of my parents and 
their friends, I would not have gone on to college much less 
have gotten my MBA from Tulane.
    The one thing that I would really like for you to walk away 
with today is an appreciation for the fact that those with 
dyslexia can and indeed do learn. We just learn differently.
    The cookie-cutter, assembly line methodology of education 
simply doesn't work for a kid with dyslexia. A system or 
methodology is needed that will not only recognize the 
existence of dyslexia, but provide for a set of accommodations 
and remediation that will allow a child to realize their full 
potential.
    I would like to thank you for your time and allowing me to 
provide this review of my experience, and I would be happy to 
answer any questions that you may have.
    Senator, thank you again for this opportunity.
    [Applause.]
    [The prepared statement of Mr. Buquet follows:]
                    Prepared Statement of JJ Buquet
    Members of the committee, ladies and gentlemen, let me begin by 
thanking you for this opportunity to address you today and to share 
with you my experience with the learning disability we know of today as 
Dyslexia.
    My name is JJ Buquet and I am the son of Jimmy and Glenny Lee 
Buquet of Houma, LA. My mother was a teacher in her early years and 
therefore had a background in the field of education. She knew what to 
look for and could sense when something wasn't right as my sisters and 
I proceeded through our formative educational years. When I was about 8 
years old, my parents recognized that there was something wrong. They 
knew my sisters and I were doing our homework, were attending class, 
were behaving and participating. And yet, we were struggling. This was 
around 1974, 1975. My mother found a testing facility in Lafayette that 
was associated with Dr. Charles Shedd and his research with learning 
disabilities. It was then that my older sister, Andree, and I were both 
diagnosed with Dyslexia.
    I wasn't quite sure what to make of all this at the age of 8 but I 
recall feeling a little relieved in knowing that my academic struggles 
were not simply the result of being ``stupid''. Your self-esteem can be 
greatly affected in the classroom as other kids are whizzing through 
books and math problems and you can't seem to get past the first three 
sentences. This revelation was a little comforting at first.
    The problem was that the K-12 world, both public and private, had 
not really recognized the existence of learning disabilities in general 
much less something called Dyslexia. There were no accommodations in 
existence. Teachers had no understanding as to the nature of the 
problem much less as to how to help a child with Dyslexia. The school 
administrators had no understanding or appreciation for the problem and 
were quite frankly frustrated at the thought of having to deal with 
kids who fell outside of what they considered to be the normal 
educational process.
    Needless to say, my parents, who were very involved in our 
educational formation, had to fight very hard and advocate strenuously 
on our behalf. But fight they did.
    They began to discuss this discovery of Dyslexia with other parents 
and quickly found out that many other parents were having similar 
struggles with their kids. Those parents had their kids tested. And 
soon, there was a small community of folks who all found themselves in 
the same situation. As I look back--they took a two-pronged approach.
    The first was to work within the educational systems to advocate 
for various accommodations. As you might expected, some administrators 
were more willing than others to help. I was fortunate. I was given 
extra time on tests, provided special meal plans, and given some in-
the-classroom remedial training.
    The second thing my parents did was start a Saturday school 
program. Every single Saturday, from 8 to 12--for 4 years, we all went 
to a site and were given intensive remedial training. But this was 
different from anything that you normally found in a regular classroom. 
The program utilized extensive multisensory methodologies. There were 
multiple one-on-one sessions running 30 to 45 minutes each.
    I must tell you that it was this intensive remediation that made 
all the difference in the world. I believe that had it not been for the 
efforts and sacrifices of my parents and the others like them; I would 
not have gone on to college much less achieve an MBA from Tulane 
University.
    The one thing I would really like for you to walk away with today 
is an appreciation for the fact that those with Dyslexia can and indeed 
do learn. We just learn differently. The cookie cutter, assembly line 
method of education simply does not work for a kid with Dyslexia. A 
system or methodology is needed that will not only recognize the 
existence of dyslexia, but provide for a set of accommodations and 
remediation that will allow for the child to realize their full 
potential.
    I would like to again thank you for allowing me the opportunity to 
be here today and to thank you for taking the time to consider the 
academic needs of those with dyslexia and other related learning 
disabilities. I would be happy to answer any questions that you may 
have.

    The Chairman. Karen, we have the contrast between a life 
with no early identification and delayed remediation, and one 
with early identification and remediation. You are the 
educator. Please comment.

  STATEMENT OF KAREN CHAUVIN, DIRECTOR, LOUISIANA CENTER FOR 
    DYSLEXIA AND RELATED LEARNING DISORDERS, NICHOLLS STATE 
                   UNIVERSITY, THIBODAUX, LA

    Ms. Chauvin. Again, I would like to thank you all for 
having me. I was asked to provide testimony addressing the 
provision of accommodations for dyslexic students and the 
resources dyslexic students need to succeed in school and life.
    Dyslexic students, because of their creative thinking 
abilities, can be valuable additions to any classroom. They 
offer unique perspectives that can enrich learning for all 
students in the class.
    However, these students are often misunderstood by 
educators, parents, and classmates. Because they struggle with 
reading, writing, spelling, and even speaking, they are often 
perceived as lacking intelligence.
    Dyslexia is a deficit in the phonological functioning, or 
the ability to manipulate the sounds of language, that results 
in difficulty or inability to decode even the simplest words, 
as Dr. Shaywitz described earlier.
    As a result, a highly intelligent student with great 
vocabulary and reasoning skills may not be able to decode 
words, preventing him from using his intelligence, vocabulary, 
and reasoning skills to make sense of what is printed on the 
page. One way students with dyslexia can succeed in spite of 
their reading challenges is to provide them with 
accommodations.
    In addition to effective teaching, accommodations are the 
key to dyslexic success in school. Some of the most common 
accommodations are tests read aloud and extended time for tests 
and assignments. Having a test or reading assignment read aloud 
or using text-to-speech software allows the student to access 
his knowledge and utilize his reasoning skills.
    Even for a student who has learned to read, reading is 
mechanical and laborious when you have dyslexia, thus resulting 
in insufficient cognitive desk space. They can't think about 
what they are reading, because the reading is so difficult.
    Good readers recognize many thousands of words by sight; 
dyslexic readers tend to have to decode every word on the page, 
as very few of them are instantly recognized. The student takes 
so long to read, and reading is so difficult, that he cannot 
think about what he is reading.
    Providing extended time for tests allows the student the 
opportunity to perhaps read and re-read the material and then 
to process what has been read. Also, when tests require writing 
answers, as opposed to just bubbling in answer sheets, the same 
amount of effort goes into formulating the answer and getting 
the words onto the page. Extended time is critical.
    Another option is to have the student dictate his answers 
either to a live person or using speech-to-text software. Being 
able to speak his answers eliminates the troublesome spelling 
and grammar problems associated with writing.
    Another accommodation for dyslexic students is the ability 
to have a note taker or copies of the teacher's notes for a 
class lecture. Because of the dyslexic's difficulty with 
printed words, both reading and writing, the student should 
have access to the notes while the lecture is going on, so he 
can simply listen and enhance or highlight the given notes.
    All too often, students are forced to try to write notes 
while the teacher is talking, but there again is the limited 
cognitive desk space. They can't pay attention to what is said 
because they are trying to spell words. He may get some words 
onto the page, but because it is such a struggle, he misses the 
gist of what the teacher is saying and cannot participate in 
discussions. Therefore, he seems to either lack motivation or 
interest, or maybe he just seems like he does not understand.
    Imagine the overwhelming challenge of having to attend to 
each letter printed or each sound spoken in words before you 
can even begin to think about the meaning of the words.
    These types of accommodations eliminate that burden. 
Unfortunately, many educators and testing companies believe 
that providing accommodations to some students is not fair to 
others.
    Rick Lavoie, an educator for over 30 years and an advocate 
for students with learning disabilities, expresses that 
fairness does not mean that everyone gets the same thing; 
fairness means that everyone gets what he or she needs to be 
successful. When students are treated fairly by Rick Lavoie's 
definition, they can succeed and even thrive in the classroom. 
We see this happen with college students every day at Nicholls 
State University.
    What Congress can do to help students with dyslexia is 
provide them with the resources they need to succeed in life 
and school.
    As an educator who travels extensively through the State of 
Louisiana and into other States, I feel that there are two 
important issues at hand.
    I am going to run out of time.
    The Chairman. You have 30 seconds.
    Ms. Chauvin. OK.
    One is the preparation of teachers at the college level. In 
1997, Congress asked the NICHD and the U.S. Department of 
Education to establish the National Reading Panel that would 
evaluate existing research and evidence to find the best ways 
of teaching children to read. The National Reading Panel 
submitted its final report in April 2000. Back in June 1999, 
Dr. Louisa Moats published a paper titled ``Teaching Reading IS 
Rocket Science'' in which she elaborated on the importance of 
effective teacher preparation in reading instructions.
    Over 15 years later, we still have young teachers in 
America's classrooms who have received minimal instructions at 
the college level on how to teach struggling readers. Where 
months of instructions in the structure of the English language 
and hands-on application are needed to be an effective reading 
teacher, particularly for students with dyslexia and similar 
learning disabilities, many teacher education candidates 
receive a simple glossing over of phonics.
    The research is there. It should guide the profession. It 
should start in every teacher preparation program in the 
country.
    As I travel to school districts providing professional 
development, I hear the same story, ``We should have learned 
that in college.''
    The second important issue, also dependent on funding, is 
the availability of resources in the public school systems. 
Right here in Louisiana, there are huge discrepancies in what 
is available for dyslexic students. School districts are funded 
largely based on the tax base of the parish. Is it fair that a 
student who is dyslexic in a poor rural parish cannot have 
access to the same effective teacher and assistive technology 
as a dyslexic student in a more prosperous district?
    Remember the fairness definition. Give the students what 
they need to succeed. Allocate Federal funding for dyslexia. 
Thank you.
    [Applause.]
    [The prepared statement of Ms. Chauvin follows:]
                  Prepared Statement of Karen Chauvin
    I was asked to provide a testimony addressing the provision of 
accommodations for dyslexic students and the resources dyslexic 
students need to succeed in school and life. Dyslexic students, because 
of their creative thinking abilities, can be valuable additions to any 
classroom. They offer unique perspectives that can enrich learning for 
all students in the class. However, these students are often 
misunderstood by educators, parents, and classmates. Because they 
struggle with reading, writing, spelling, and even speaking, they are 
often perceived as lacking intelligence. Dyslexia is a deficit in the 
phonological functioning (the ability to manipulate the sounds of 
language) of the brain that results in difficulty or inability to 
decode even the simplest words. As a result, a highly intelligent 
student with great vocabulary and reasoning skills may not be able to 
decode words, preventing him from using his intelligence, vocabulary, 
and reasoning skills to make sense of what is printed on the page.
    One way students with dyslexia can succeed in spite of their 
reading challenges is to provide them with accommodations. In addition 
to effective teaching, accommodations are the key to dyslexics' success 
in school. Some of the most common accommodations are tests read aloud 
and extended time for tests and assignments. Having a test or reading 
assignment read aloud or using text to speech software allows the 
student to access his knowledge and reasoning skills. Even for a 
student who has learned to read, reading is mechanical (not smooth) and 
laborious, thus resulting in insufficient cognitive desk space. Good 
readers recognize many thousands of words by sight; dyslexic readers 
tend to have to decode every word on the page as very few of them are 
instantly recognized. The student takes so long to read, and reading is 
so difficult, that he cannot think about what he is reading; he has 
limited cognitive desk space. Providing extended time for tests allows 
the student the opportunity to perhaps read and re-read the material 
and then to process what has been read. Also, when tests require 
writing answers (as opposed to bubbling in answer sheets), the same 
amount of effort goes into formulating the answer and getting the words 
onto the page. Extended time is critical. Another option is to have the 
student dictate his answers either to a live person or using speech to 
text software. Being able to speak his answers eliminates the 
troublesome spelling and grammar problems associated with writing. 
Another valuable accommodation for dyslexic students is the ability to 
have a note-taker or copies of the teacher's notes for a class lecture. 
Because of the dyslexic's difficulty with printed words (reading and 
writing) the student should have access to the notes while the lecture 
is going on so he or she can simply listen and enhance or highlight the 
given notes. All too often, students are forced to write notes while 
the teacher is talking, but again, there is limited cognitive desk 
space. He may get some words onto the page, but because it is such a 
struggle, he misses out of getting the gist of what the teacher says, 
and he cannot participate in discussions because of it. Imagine the 
overwhelming challenge of having to attend to each letter in printed 
words or each sound in spoken words before you can even begin to think 
about the meaning of the words. These types of accommodations eliminate 
that burden. Unfortunately, many educators and testing companies 
believe that providing accommodations to some students is not fair to 
the others. Rick Lavoie, an educator for over 30 years and an advocate 
for students with learning disabilities, expresses that fairness does 
not mean that everyone gets the same thing; fairness means that 
everyone gets what he or she needs to be successful. When students are 
treated fairly by Rick Lavoie's definition, they can succeed and even 
thrive in the classroom.
    What can Congress do to help students with dyslexia have the 
resources they need to succeed in life and school? As an educator who 
travels extensively throughout the State of Louisiana and into other 
States, I feel that there are two important issues at hand. One is the 
preparation of teachers at the college level. In 1997, Congress asked 
the NICHD and the U.S. Department of Education to establish the 
National Reading Panel that would evaluate existing research and 
evidence to find the best ways of teaching children to read. The 
National Reading Panel submitted its final report in April 2000. In 
June 1999, Dr. Louisa Moats published a paper titled Teaching Reading 
IS Rocket Science in which she elaborated on the importance of 
effective teacher preparation in reading instruction. Now, over 15 
years later, we still have young teachers in America's classrooms who 
have received minimal instruction at the college level on how to teach 
struggling readers. Where months of instruction in the structure of the 
English language and hands-on application are needed to be an effective 
reading teacher, particularly for students with dyslexia and similar 
learning disabilities, many teacher education candidates receive a 
simple glossing over of phonics. The research is there. It should guide 
the profession, and it should start in every teacher preparation 
program in the country. Then, the research should guide professional 
development for current teachers. As I travel to school districts 
around the country, providing professional development, I hear the same 
story, we should have learned that in college.
    I realize that most decisions boil down to funding, but for the 
future of our children, we need to be sure that adequate funding is 
available for teachers (pre-service and in-service) to access high-
quality teacher education programs that utilize the research and 
prepare teachers to teach ALL children. It is estimated that 1 in 5 
children are dyslexic. It is not good enough to prepare teachers to 
teach 4 out of 5 children.
    The second important issue, also dependent on funding, is the 
availability of resources in the public school systems. Right here in 
Louisiana there are huge discrepancies in what is available for 
dyslexic students. School districts are funded largely based on the tax 
base of the parish. Is it fair that a student who is dyslexic in a poor 
rural parish cannot have access to the same effective teacher and 
assistive technology as a dyslexic student in a more prosperous 
district? Remember the fairness definition? Give the students what they 
need to succeed. Allocate Federal funding for students with dyslexia.

    The Chairman. Let me just say, to hear the Shaywitzes with 
their slides, and then to hear Ameer and J.J. kind of give the 
real life of what it was about--one thing I took notes from 
what I think Dr. Sally Shaywitz said, that students must be 
empowered. They need to understand what is going on with 
themselves. They need to be in a community and know that they 
are not alone. And then everybody else must be on board.
    Ameer, let me ask, at some point you realized that there 
was nothing to be ashamed of. You had the brainpower. You had a 
sea of strengths. For whatever reason, you couldn't read. When 
were you actually told that there was something called dyslexia 
and that you might have it?
    Mr. Baraka. I was told that when I was sent to the 
penitentiary.
    The Chairman. Who told you?
    Mr. Baraka. A schoolteacher.
    The Chairman. What did that do? Sally mentioned, once given 
the diagnosis, it kind of allows the child or the adult that 
self-
insight. Did that occur with you? I am going to ask the same 
thing of you, J.J.
    If so, what did it mean?
    Mr. Baraka. What made me feel good about myself was, in 
prison, there are so many men who cannot read. When you go to 
prison, you are tested. Everyone goes to class and you take 
this exam. I found out they said I was at the second or third 
grade level. Another guy said he was on the fourth grade level. 
I felt good that I was in a room with people that were maybe a 
year or two above me, but who were all grown men. I felt really 
good about that.
    I said to myself, OK, these guys are just like me. They are 
just like me, unfortunately.
    The Chairman. That was a community of those who struggle to 
read. What about the community of those who might have dyslexia 
and, my gosh, maybe you can read?
    By the way, I didn't realize until you just said it that 
the prisons have data on their percent of newly incarcerated 
who are functionally illiterate.
    Mr. Baraka. Yes. Very high.
    The Chairman. I knew it was high. I didn't know that they 
routinely screen for that.
    Mr. Baraka. They do.
    The Chairman. J.J., at some point, you see your sisters. 
Sibling rivalry must have been tough on you. They are doing 
well. You are not. Yet then you were told there is a reason 
that you were not. Dr. Sally mentioned how much that can mean 
to a child. Then you are instantly went into the community.
    It is like you were the PowerPoint slide, J.J. Buquet.
    Mr. Buquet. Right.
    The Chairman. Give us your real life experience with that.
    Mr. Buquet. My older sister and I were both diagnosed, so 
there was not too much competition. It was early on. I was 8 
years old. She was 12. As you progress in age, the more 
difficult it becomes because the further and further behind you 
become at your grade level. My sister, Andree, was 4 years 
ahead and really had more of a compensatory lag to make up for.
    It is very, very frustrating. It is a relief. Again, I was 
8 years old. That was a long time ago. I had a friend of mine 
who discovered that he was dyslexic about 20 years ago. He was 
in college. To see the relief on his face that,

          ``Hey, I am really not stupid. I just have this 
        little neurological issue, and there is actually some 
        programming out there to help me overcome it.''

    It is a huge relief to those who find out.
    Senator, the prison system, a lot of those guys who are 
illiterate, a lot of them have dyslexia. It goes all the way 
back to--knowledge is power, but power can be dangerous, and it 
requires a response. If we were testing in our public school 
systems, and in private, for that matter, at an early age, 
grades one, two, three, and determined what kids have 
dyslexia--we test kids so much today, why can't we test for 
this? I am afraid the administrators don't want to know, 
because that means they would have to respond to it.
    If you have 20 percent of your population with a particular 
virus, that would be all over the news as a pandemic. You do 
not hear about it in the field of education with dyslexia.
    I really think that the diagnosis early on is a critical 
first step as we try to wrap our hands around the problem 
nationally.
    The Chairman. That feeds nicely into the story of your 
sister--delayed diagnosis bringing on greater difficulty.
    Let me ask of either Dr. Bennett or Dr. Sally, you mention 
that those differences can be found detected in first grade. 
What is the consequence of not making early diagnosis and not 
also having that early remediation?
    Dr. Sally Shaywitz. The consequences are severe and grave. 
One is the student and the way that student is treated by his 
or her teacher. They are often called dumb or, ``How can you 
not understand that?'' Or called to read aloud and cannot. That 
student is teased and bullied.
    Because that achievement gap is so large at the beginning, 
it is just going to persist. The student will believe that they 
don't have intelligence.
    Just like Ameer said, they will feel that school is not the 
place for me and also feel that they are dumb.
    The Chairman. Sally, so the delayed remediation, it is not 
as if you don't begin remediation until the fourth grade, you 
quickly catch up. I am gathering from what you are saying that 
there will still be the normal kind of--no, it takes 3 years to 
learn this course material.
    Is that a correct assessment?
    Dr. Sally Shaywitz. Yes, and they don't. That is the real 
difficulty. The systems that are in place are not appropriate, 
and you have to undo the incorrect and, on top of that, undo 
all the aversion and lowered self-esteem.
    We have to get rid of this reading by grade three. We need 
to start saying reading in first grade and second grade, at 
least be on the pathway to reading and not to ignore children 
who are struggling early on.
    There are ways to detect that, to identify that, and to 
address that.
    The Chairman. Let me ask, because I have learned from you 
and from others, so let me just bring something to the table, 
that the first grader has a brain particularly capable at that 
stage of development, the elasticity, if you will, of that 
first grade brain may be greater. Not only is it that the 
intervention is delayed but that that critical moment in which 
the child's brain is ready to take off, that period is lost.
    Do I understand that correctly? Am I overstating it? What 
would your comment be?
    Dr. Sally Shaywitz. That pretty much sums it up. Children 
are ready, eager when they enter school. Their brains are 
ready. When children enter school, we tell them, ``Oh, you are 
going to learn to read and you are going to be a reader,'' and 
they are all anticipating. Then they see everyone around them 
doing it and they begin to wonder, ``Why can't I?'' There is 
nobody typically around who answers that or helps them.
    The Chairman. Let me ask you both again before I come back 
to the panel here, J.J. mentioned, why aren't we screening 
children in first grade? Ameer's testimony suggests that would 
have made all the difference in the world. You mentioned almost 
one of five children are dyslexic.
    Yet that is not what a typical elementary school will have 
identified. They will not identify 20 percent of the children 
as dyslexic.
    J.J.'s point that we should be screening all first-graders, 
would you endorse that?
    Dr. Sally Shaywitz. Oh, absolutely. We should be screening 
kindergartners and first graders.
    We can do that. We have the methods to do it. Some methods 
involve actually testing children, for example, on life 
knowledge. They are newly developed--I must admit that we 
develop such an instrument--that teachers complete in 5 or 10 
minutes and are highly predictive of which children will go on 
to have more serious reading problems.
    The important thing is it has to be part of the agenda. It 
has to be part of the curriculum.
    I have had parents tell me, for example, ``Well, I saw it 
in kindergarten. I saw it in first grade, and I was told it was 
a glitch. It will get better.'' Then in second grade, ``Oh, 
don't worry. He'll catch on.'' And then it was fifth grade and 
he was struggling and didn't want to go to school.
    We have to detect things early on. Imagine if this was any 
kind of medical condition. ``Oh, well, let's wait.'' That is 
unconscionable with all the science we have and all that we 
know. We heard these really incredibly riveting stories of what 
happens when it is not identified.
    We know how to identify it. We can identify it, and there 
is absolutely no reason that it should not be. It has to be a 
permanent part of a school's agenda early, early on.
    The Chairman. We have been speaking about primary and 
secondary education, but Karen, You might be qualified to speak 
to this. I have been to Nicholls State University. I know that 
that is a university that attempts to accommodate children with 
dyslexia.
    I am struck when Sally says that everybody has to be on 
board, that you can't have the PE coach not knowing or the 
history teacher not knowing. We have been speaking about 
primary and secondary, but speak about how it also, if you 
will, in the university setting continues.
    Ms. Chauvin. Oh, yes. We have a program for dyslexic 
students over at Nicholls State University. This is our record 
enrollment. We have 130 college students in our program. They 
attend the classes just as everyone else. They receive a little 
assistance from us. We have some insight into which professors 
are more likely to work with them, so we steer them that way. 
They receive the same instruction, the same curriculum as 
anyone else. But they get support.
    It is sometimes very heartbreaking to see college students 
who read at the third or fourth grade level who want to succeed 
so badly. They will suspend hours on end in our Dyslexia Center 
getting re-taught what they were taught in the classroom. But, 
they do it.
    We have had students who have come through our program who 
have gone on to fight much bigger and better things. A graduate 
that I can think of, she is a manager. She came from Lake 
Charles, LA, and she is a manager at the Four Seasons Hotel in 
New York City. She got that way through a culinary arts degree 
at Nicholls State University with the help of the Dyslexia 
Center.
    It boils down to re-teaching, the remediation, and the 
provision of accommodations.
    One thing that I have noticed, though, that is also kind of 
heartbreaking is that these people come through high school. 
They have a diagnosis. They get into college. They do very well 
in our program. Then some of them want to go on and get an 
advanced degree, and in many cases--this was mentioned 
earlier--some of those standardized tests, like the LSAT, they 
have to get reevaluated when we have been knowing for 12 to 15 
years that they have dyslexia.
    They have to get reevaluated to get accommodations on that 
test. That should not be because when you have dyslexia, you 
have dyslexia.
    I would like to see that type of requirement changed. Those 
testing companies could just take their word for it, if they 
have a documented history.
    Some of our students do not get to take that next step 
because they cannot afford a reevaluation. That shouldn't be 
the case.
    The Chairman. I will say that when I was in Congress, we 
sent letters to a lot of the boards to find which accommodated 
and which did not. Some do. Some have begun to. And some don't.
    Sally has worked on this. It is against the law. Sometimes, 
I hate to say this, it may take a lawsuit, because you can pass 
another law, but if they are not obeying the current law, they 
probably are not going to obey another law, if that makes 
sense.
    Nonetheless, I totally agree with that.
    In fact, Sally once told me that many dyslexics are 
architects, but they do not have a test. They say go draw your 
project and you draw it. I am speaking for Sally, but she is on 
mute, so I can get away with it.
    Bennett, Karen mentioned people going to college who have 
struggled so much, and then mentioned the test they must take 
to go on. For whatever reason, that triggers in my mind 
standardized testing that is now so prevalent in primary and 
secondary education.
    Can you speak about standardized testing in the primary and 
secondary setting and what that means for children with 
dyslexia?
    Dr. Bennett Shaywitz. Yes. Thank you for asking, Senator 
Cassidy.
    In fact, we think that the Common Core State standards and 
the associated PARCC are really inappropriate for dyslexic 
students, and particularly for dyslexic elementary students. 
There are reasons for this. There are several that I listed.
    These tests, standards and the tests that go along with 
them, are based on the mistaken belief that all students, 
including dyslexic students, will be fluent readers by the end 
of second grade, and that all students, including dyslexic 
students, should read at grade level and above.
    Furthermore, this comprehension-focused reading structure, 
and I put in quotes using ``complex text,'' because that is the 
wording of the Common Core standards, that should be the basis 
of reading instruction. The problem is that ignores whether or 
not the student can actually read the words in the complex 
text.
    What we think, and more and more evidence is coming to 
support this, is that this has serious implications for 
dyslexic students. For example, the PARCC for third-grade 
students is more targeted for the reading level in fifth grade 
and is focused on reading comprehension. That is terribly 
unfair for a dyslexic student.
    This further has the pernicious effect of schools dropping 
all other instructions, including much-needed decoding 
instructions, to focus almost exclusively on comprehension.
    Again, the multiple-choice questions in the PARCC are very 
inappropriate for students who are dyslexic. It does not give 
them the context to understand what the question actually is.
    We also know that this Common Core focus on comprehension, 
while it may be appropriate for students in high school who are 
good readers, it is really inappropriate for students in the 
very early grades, especially dyslexic students who are 
invariably still struggling with and working hard to master 
decoding.
    What I think this also has is the terrible consequence of 
providing misleading data with very serious consequences for 
students and for schools and for teachers. What really is the 
problem is that this is an inappropriate test for dyslexic 
students. People are beginning to recognize that. Everybody at 
this meeting should recognize that this is a very serious 
problem.
    The Chairman. Bennett, that begs the question, if you want 
to have some way to assess the progress of a child who is 
dyslexic grades one, four, six, eight, whatever, how do you do 
so? Can it be done?
    Dr. Bennett Shaywitz. Yes. There are a number of other 
tests that can be used that would give you a sense of whether 
the child is mastering reading. There are many good reading 
tests. You can see whether the child is improving their reading 
as they are going through school.
    What I am saying is that the way the Common Core standards 
and the PARCC tests are set up are very inappropriate for 
dyslexic students who are still learning to decode text, and 
that is a very inappropriate way to assess their progress. 
There many other reading tests that can be used to assess the 
reading progress of students who are dyslexic. The PARCC is a 
very inappropriate one.
    Dr. Sally Shaywitz. I am going to jump in, too, Senator. 
Given that dyslexia is so prevalent, one out of five, it really 
behooves companies like the company that is responsible for 
PARCC, dyslexia is an important issue to them, to get together 
and develop tests that are appropriate for dyslexic students.
    In developing both the Common Core-based standards and 
PARCC, it was as if they weren't aware that dyslexia exists, 
that dyslexia is highly prevalent, and sort of went ahead. It 
is harming many, many students and teachers, too.
    The Chairman. Let me ask, as long as you all are up right 
now, J.J. spoke about his mother, who is an educator, detecting 
that he had dyslexia at an early age.
    If there is somebody who sees this testimony and is 
concerned that their child might be dyslexic, what would be the 
indicator that, ``Oh, my gosh, my daughter or my son may be 
having this issue. We need to have it further pursued.'' Just 
the fact that the child is not reading as quickly as others? Or 
is there a way to be more proactive?
    Dr. Sally Shaywitz. Let me take a shot at that.
    Because we know that dyslexia reflects a difficulty in 
getting to the sounds of spoken language, we can look for signs 
even before the child is expected to read, signs relating to 
spoken language.
    For example, there may be delayed--not hugely, but somewhat 
delayed language. A very young child, a toddler, may have 
trouble learning nursery rhymes, because in order to appreciate 
a rhyme, you have to be able to pull out a part and focus on 
just the end--the rhyme, at, hat, cat, et cetera. There may be 
a lack of appreciation of rhymes. There may be mispronounced 
words or persistent baby talk.
    As the child becomes 4 or 5, there may be difficulty 
learning and remembering the names of letters. The child may 
not even recognize letters in his or her own name.
    Then as the child enters kindergarten or first grade, they 
just don't get it, and not because they are not intelligent but 
because they have phonological difficulties. Words that come 
apart, ``cowboy'' you can pull apart as ``cow'' and ``boy,'' 
they have a real difficulty, if not inability, to associate 
letters with sounds.
    They make reading errors that show no connection of what 
comes out of the child's mouth to the letters of the sound. 
They will read the word ``milk'' as ``hat,'' for example.
    Then sadly, the child will turn off of reading and complain 
how hard reading is and run away or find ways even to get into 
trouble to avoid having to read, particularly to read aloud.
    Early on, there are signs. In my book, ``Overcoming 
Dyslexia,'' I list at every couple grades what the signs are. 
There are often signs, just like we were hearing about 
intelligence on what children can do. So it fits the Sea of 
Strengths model.
    We have to pay attention to both, and we can't say, ``He 
will grow out of it.'' What we learned from science is that he 
will not grow out of it. We have to address this early on, and 
now we can.
    The Chairman. Drawing to a close, first, I will address 
this to you, Karen, and then come back to the Shaywitzes, 
because you all are both at academic institutions.
    You mentioned the problem of schools and education not 
teaching teachers, if you will, what Dr. Shaywitz was just 
talking about. There was a teacher in sixth grade that figured 
out that Ameer had an issue. He had a lot of teachers before 
the sixth grade.
    I will first turn to you and then to the Shaywitzes, what 
should we do?
    Ms. Chauvin. That is a question we all ask, what should be 
done? Like I said, the research is there. The research has been 
there. I actually have a book that was written by Anna 
Gillingham. I believe it was in the 1940s or the 1960s or 
something. It discusses how children with dyslexia should be 
taught to read.
    What is kind of ironic is that that was the way for 
dyslexic kids, but what Louisa Moats published in ``Teaching 
Reading IS Rocket Science,'' she basically said the same thing.
    We have been saying the same thing over and over for 
decades now. The Shaywitzes have said it. Others have said it. 
We know how people learn to read. We know why dyslexics 
students don't learn to read easily.
    I don't know. The resources definitely need to be dedicated 
toward training teachers before they get out into the field to 
work with dyslexic students. When I was a new teacher, my first 
classroom, they say, one in five? I can name three or four 
students from that first class that had dyslexia, but I didn't 
know it because I wasn't trained to look for dyslexia.
    I had never heard the word dyslexia in 1988 in Louisiana. 
We had a law that was passed in the early 1990s. I didn't know 
one thing about dyslexia.
    I had a 10-year-old child in my first class--second grade. 
I was his first second-grade teacher. What a failure. Somebody 
failed. His other teachers before me didn't know.
    It's not their fault. They weren't taught either.
    I don't know exactly what the answer is, but something 
needs to be done.
    Audience Member. Senator, may I?
    The Chairman. See that guy over there in the corner?
    Audience Member. I'd have to punch him?
    The Chairman. Exactly. You would have to punch him out 
first. Under Senate rules, we are not allowed to take questions 
from the audience, so I apologize for that. I tried to bend the 
rules, and they told me I would be carted away, too, in a perp 
walk. We will speak afterwards.
    Audience Member. OK.
    The Chairman. Sally.
    Dr. Sally Shaywitz. I have a comment.
    The Chairman. Yes, ma'am.
    Dr. Sally Shaywitz. Schools of education have to improve 
their teaching of reading, but I think it is actually a bigger 
issue because dyslexia doesn't only affect the child's ability 
to read. It affects the whole child.
    Senator Cassidy, you, Bennett and I know that when we train 
to become physicians, we have several years of book study, but 
where we really learn how to take care of patients is where we 
have real-life experiences--intern, resident, et cetera, seeing 
and caring for patients under supervision and mentorship.
    For example, one of the real advantages of specialized 
schools for dyslexic students is that teachers in training can 
come and experience in real life what a dyslexic child is like. 
It is not only what is written on the page, you can't do this 
or that, but the whole of that.
    Such specialized schools give an opportunity for teachers 
to really learn in a much broader way and in a much deeper way 
what dyslexia is and how it impacts a child and how it is best 
addressed.
    The Chairman. I am going to finish with this question for 
Ameer. There clearly are multiple challenges here, but one 
thing we draw from this is, if we choose not to address these 
challenges, there are incredible consequences.
    Ameer, you go to prisons now to speak to those who are in 
prison about illiteracy. Knowing you do not have hard 
specifics, but give us a sense, what percent of inmates you 
interact with who cannot read, and if you can, what percent of 
those you find really pretty bright and talented, with lots of 
reasoning skills, who know what is going on? Maybe they used to 
do a big drug ring. They have business skills. But they cannot 
read.
    Can you give me a sense of the scope of that?
    Mr. Baraka. I would say, just recently I was in a class and 
they were reading. Only a couple guys in this whole dorm of 60 
guys who were reading. Maybe out of the 60 guys, I would say 
about 40 of them, 40 of them, could not read or have problems 
reading.
    This is something that I tell them they shouldn't be 
ashamed of because I was just like them, and I tell them that 
while serving their lengthy sentence, they must pursue 
academics. They must do everything that they can to learn to 
read.
    I want to say, Senator, he had parents who took him and he 
was trained in phonics. Every word that I know how to spell, I 
know that word from looking at it. I cannot break a word down. 
I don't have that skill. I was not taught that ability.
    Back to the guys incarcerated, if we don't get ahold of 
this problem, particularly in the African American community, 
what I see is that we are going to have prisons bigger than 
college campuses. If you want to make some money, start 
investing in prisons, because guess what, Black boys are going, 
because many of them cannot read. They cannot read.
    The shame, the embarrassment in the community, you go into 
a shell. By God's grace, I was able to come out. I don't know 
if they're able to make it.
    The Chairman. That is an incredible way to finish.
    Thank you all for being here. Thank you to the Shaywitzes.
    I am instructed to say that the hearing record will remain 
open for 10 days for me to submit additional comments and any 
questions for the record that I may have.
    I thank you for being here.
    The committee will now stand adjourned. Thank you all.
    [Whereupon, at 11: 34 a.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
